<html>
<title> - ABUSE OF ANABOLIC STEROIDS AND THEIR PRECURSORS BY ADOLESCENT AMATEUR ATHLETES</title>
<body><pre>[Senate Hearing 108-814]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-814



                       ABUSE OF ANABOLIC STEROIDS

                        AND THEIR PRECURSORS BY

                      ADOLESCENT AMATEUR ATHLETES

=======================================================================

                                HEARING

                               before the

            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________


                                  ______

98-053 PDF           U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL

                      ONE HUNDRED EIGHTH CONGRESS

      ...........................................................
                  Charles E. Grassley, Iowa, Chairman
              Joseph R. Biden, Jr., Delaware, Co-Chairman
Jeff Sessions, Alabama               Bob Graham, Florida
Mike DeWine, Ohio                    Dianne Feinstein, California
Norm Coleman, Minnesota
                       Eric Akers, Staff Director
                  Marcia Lee, Minority Staff Director




                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page


The Honorable Charles E. Grassley, U.S. Senator from Iowa........     1
The Honorable Joseph R. Biden, U.S. Senator from Delaware........    19
    Prepared statement...........................................    20

                                PANEL I

Joseph T. Rannazzisi, Deputy Director, Office of Diversion 
  Control, Drug Enforcement Administration.......................    11
    Prepared statement...........................................    12
Terrence P. Madden, Chief Executive Officer, U.S. Anti-Doping 
  Agency.........................................................    15
    Prepared statement...........................................    17
William C. Martin, Donald R. Shepherd Director of Intercollegiate 
  Athletics, The University of Michigan, Ann Arbor, Michigan.....    21
    Prepared statement...........................................    23

                                PANEL II

John Doe, (hidden witness), College Athlete, NCAA Division I 
  Football Team..................................................    34
    Prepared statement...........................................    36
Curtis A. Wenzlaff, Convict, Former User and Dealer of Illegal 
  Steroids.......................................................    37
    Prepared statement...........................................    40
Don Hooten, Father; Son Committed Suicide After Using Steroids...    41
    Prepared statement...........................................    45
Don H. Catlin, M.D., Professor of Molecular and Medical 
  Pharmacology, UCLA Analytical Laboratory.......................    50
    Prepared statement...........................................    55
Questions for the Record:
    Joseph T. Rannazzisi.........................................    98
    Terrence P. Madden...........................................    95
    Don H. Catlin, M.D...........................................    93

 
 ABUSE OF ANABOLIC STEROIDS AND THEIR PRECURSORS BY ADOLESCENT AMATEUR 
                                ATHLETES

                              ----------                              


                         TUESDAY, JULY 13, 2004

                              United States Senate,
                 Caucus on International Narcotics Control,
                                                    Washington, DC.
    The Caucus met, pursuant to notice, at 9:52 a.m., in room 
SD-215, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Caucus, presiding.
    Present: Senators Grassley and Biden.

        OPENING STATEMENT OF HON. CHARLES E. GRASSLEY, 
                     U.S. SENATOR FROM IOWA

    Chairman Grassley. Good morning, everybody, and I 
appreciate everybody who has come, and we are getting started 
just a little bit early. Normally I do not start without a 
member of the minority present, but Senator Biden is the Vice 
Chairman here, and he commutes regularly. His train is a little 
bit late, but he gave permission for us to go ahead, so I am 
going to start.
    For more than two decades, the use of steroids by 
professional athletes has been widely reported. Indictments 
against executive officers of a San Francisco area nutritional 
supplements lab--and these indictments were Federal steroid 
distribution charges--have brought even more attention to the 
use of steroids. Recently, accusations of world-class track and 
baseball athletes using steroids have hit the news. But steroid 
use often begins even before athletes achieve international 
recognition.
    Today's hearing will focus on the availability of illegal 
steroids and, of course, on the pressures that young athletes 
face to use steroids to improve their performance. Anabolic 
steroids are easily purchased over the Internet, as well as 
from users who sell and distribute steroids in gyms. The ease 
with which anybody, including young people, can acquire these 
drugs, coupled with the high percentage of purchased steroids 
that are counterfeit, even heighten the severe health risks to 
the users.
    Recent studies have shown that the use of illegal steroids 
has skyrocketed among high school and college athletes. Despite 
the widely publicized danger of anabolic steroid abuse, it is 
estimated that as many as 5 million people annually, even 
including 175,000 high school girls and 350,000 high school-
aged boys, may be abusing these drugs to improve athletic 
performance, appearance, and self-image. In fact, those same 
studies have shown that some users start even younger, first 
using steroids while they are in middle school. These children 
are taking drugs to gain immediate enhancement of athletic 
performance.
    What has been most troubling is that some coaches, the very 
people we entrust to teach fair sportsmanship to our children 
and to care for their well-being, are promoting the use of 
steroids. The mind-set that winning comes before all else says 
to our kids that they should do whatever it takes to get 
bigger, to get stronger, and to get faster. Too often, young 
athletes see steroid use as the only way to comply with that 
coach's demand. Winning at all costs places too great a risk to 
the health of our children and undermines the element of 
fairness that we expect in sporting competition.
    When I started to look at this problem, I was amazed at 
just how easy it is to get this poison. I found several 
websites where steroids and precursors can be purchased online. 
In fact, I found illegal steroids available on eBay! And if 
that is not bad enough, young athletes can buy the needles used 
to inject the illegal steroids directly into their bodies on 
eBay as well.
    Example 1 that I show you here shows one of these sales on 
eBay where they advertise 1-inch needles to inject, and I 
quote, ``DECA, D-BOL, TEST.'' These are all terms for illegal 
steroids. This web page also says that these needles, and I 
quote, are ``a must for those with gear,'' and the word 
``gear'' being a common code word for steroids.
    A second example, also taken from eBay, shows just how easy 
it is to buy steroids. Now, notice the category at the top of 
the poster that says the drugs are listed under ``Health and 
Beauty.'' Quite ironic, actually. We will hear from one 
witness, Dr. Catlin, a leading expert on steroids, about the 
clear dangers to the health of those who take these illegal 
drugs. We will also hear from Don Hooten, whose son, Taylor, 
committed suicide as a result of abusing illegal steroids. Now, 
when you get right down to it, what beauty is there in the 
death of a young student?
    Again, example 2 offers the illegal steroid D-bol or 
Dianabol to any willing bidder. This fellow says that D-bol 
pills he is selling are, and I quote, ``the real deal'' and 
that he ``used them personally and they're awesome.'' A 
personal endorsement, and according to this example, you get 
free shipping to boot!
    We have example 3 that shows how easy it is to get 
injectable steroids on the Internet. This seller has 10 ampules 
of Sustanon and 10 ampules of Deca-Durabolin. That's referred 
to as ``Deca.'' This seller tries to pretend that he does not 
know what these drugs will be used for when he says, and I 
quote, ``For vet use only.'' What veterinarian would buy his 
medications on eBay?
    Injectable steroids are particularly dangerous to young 
abusers who do not know how to inject needles correctly. 
Infections, nerve damage, and even deadly disease can occur 
from the use of needles. Injecting steroids directly into the 
vein or artery can cause serious health risks.
    Others use clever tricks to hide their criminal intent. In 
example 4, this guy claims to be selling a ``picture of D-
bol.'' Just a picture. Included in the description, he tells 
the buyer the lot number and expiration date of the picture. 
Indeed, he says, ``The picture comes in a sealed container with 
free priority mail.'' By the way, the picture sold for $60.
    In example 5, we see a seller who advertises a list of 
steroid distributors that he got from ``steroidworld.com.'' The 
seller says that he has ``100 percent success rate'' and that 
the sellers on the list will, and I quote, ``use labels which 
will hide the package's contents.''
    So, I hope it is quite obvious and clear that these 
products are readily available. But to make matters worse, 
counterfeit steroids are also being sold widely. These fake 
drugs are very convincing in appearance. In front of us, you 
can see several examples of high-quality counterfeit steroids. 
Notice the quality of the packaging, labeling, and inserts that 
are on the table. These steroids are fake but convincing. We 
will hear more about this today from a former steroid 
distributor and user, who will testify that 95 percent of the 
steroids on the market are not genuine. Fake steroids have been 
known to have a mixture of cooking oil--can you believe this?--
even motor oil in the package. Imagine a high school student 
injecting motor oil into his or her body.
    I hope that today's witnesses will help us all understand 
the problems here as well as some of the efforts being made to 
confront this menace. In addition to the testimony that we will 
hear today, we have also received written testimony from 
several different groups, which, if there is no objection, I 
will include in the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8053.030
    
    [GRAPHIC] [TIFF OMITTED] T8053.031
    
    [GRAPHIC] [TIFF OMITTED] T8053.032
    
    [GRAPHIC] [TIFF OMITTED] T8053.033
    
    [GRAPHIC] [TIFF OMITTED] T8053.034
    
    [GRAPHIC] [TIFF OMITTED] T8053.035
    
    [GRAPHIC] [TIFF OMITTED] T8053.036
    
    Chairman Grassley. When Senator Biden comes, if he wants to 
interject in the middle of the first panel, I will stop and let 
him testify, because normally we do that before we start out.
    So I now recognize our first panel. We will begin to hear 
testimony from Joseph Rannazzisi, Deputy Director of the Office 
of Diversion Control at DEA. The second witness is Terry 
Madden, the CEO of the U.S. Anti-Doping Agency (USADA). The 
USADA is officially responsible for education, testing, and 
adjudication of doping violations of Olympic, Pan-American, and 
Paralympic athletes with respect to performance-enhancing 
drugs. Lastly, we have Bill Martin, the Athletic Director at 
the University of Michigan and the former president of the U.S. 
Olympic Committee.
    All of you folks are so deeply involved in this and I am 
sure you all have very busy schedules, but I want to thank you 
for being here this morning. We hope that you have very long 
statements to put in the record. We have asked you, if you 
could, to summarize your remarks in 5 minutes because all of 
your testimony can be put in the record. And then we will have 
questions from any of the members, including myself, after all 
three of you have testified.
    Mr. Rannazzisi, we will start with you.

 STATEMENT OF JOSEPH T. RANNAZZISI, DEPUTY DIRECTOR, OFFICE OF 
              DIVERSION CONTROL, DRUG ENFORCEMENT 
                         ADMINISTRATION

    Mr. Rannazzisi. Chairman Grassley, staff members of the 
Senate Caucus on International Narcotics Control, it is an 
honor to appear before you today for the first time in my 
capacity as Deputy Director of the Drug Enforcement 
Administration, Office of Diversion Control. On behalf of DEA's 
Administrator, Karen Tandy, I appreciate the opportunity to 
testify before you on this important issue.
    The issue of steroid abuse has recently received national 
and international attention in the context of professional 
sports, as well as the upcoming Olympic Games. The importance 
of stopping steroid abuse extends far beyond the baseball 
diamond, football field, or running track. Our focus in this 
area is the health and future of our children. Abuse of 
anabolic steroids among America's youth has reached dangerous 
levels and it has placed our children at increased risk of 
heart disease, liver cancer, depression, stunted growth, and 
eating disorders, not to mention increased episodes of 
hostility and aggression.
    Steroid abuse poses real dangers and has become a national 
concern. The idolization of sports heroes and the enticement of 
improved athletic performance have led many of our Nation's 
youth to turn to steroids.
    Unfortunately, many youth and amateur athletes have 
misconceptions about steroids and are uninformed about their 
dangers. The 2003 Monitoring the Future Study conducted by the 
University of Michigan indicates that approximately 3.5 percent 
of American high school students have used illegal anabolic 
steroids at least once by grade 12. This study also showed that 
an incredible 45 percent of all 12th graders did not believe 
that taking steroids posed a great risk.
    The risks of abusing steroids are real and compelling. They 
include damage to the heart, kidneys, liver, and sex organs. 
The use of steroids can also prevent children from reaching 
their full height. Moreover, abuse often elevates cholesterol 
levels and causes cardiovascular weakening, combined with 
hypertension. Steroid use can also cause uncontrollable 
outbursts of anger, frustration, or combativeness, resulting in 
wanton acts of violence. These outbursts are commonly referred 
to as ``roid rage.'' The sharing of needles to inject these 
substances may also expose the users to HIV. Steroids can be 
addictive, as evidenced by the continued use in spite of 
adverse physical and psychological effects.
    In order to effectively battle these dangerous drugs, the 
DEA has continued to conduct investigations targeting 
significant traffickers of steroids, has through our demand 
reduction program continued to work to inform and educate the 
public on the dangers of steroids, and has continued to 
initiate and fund studies in accordance with the Anabolic 
Steroid Control Act of 1990.
    Unfortunately, the minimal research and short testing time 
required for continuous, rapid introduction of new steroids 
into the open market has made attempts at monitoring and 
scheduling these new substances extremely difficult for law 
enforcement authorities. The legislation sponsored by Senators 
Biden and Hatch, S. 2195, will provide strong new tools for the 
DEA to shut down the steroid trade. This bill will no longer 
allow steroids to masquerade as harmless dietary supplements. 
It deals with steroids for what they are: dangerous drugs.
    The DEA appreciates the work of the Caucus to move this 
legislation forward. The bill would give the DEA clear 
authority to conduct law enforcement operations against 
trafficking of steroid precursors and steroids, such as the 
designer steroid THG. Also, this legislation will remove an 
enormous stumbling block to taking these steroids off the shelf 
by removing the requirement for repetitive, lengthy, and 
expensive testing to prove muscle growth. It will also provide 
a foundation to jump-start our future efforts by adding more 
than two dozen known dangerous steroids to the list of 
controlled substances.
    Mr. Chairman, thank you for your recognition of these 
important issues and the opportunity to testify today. I would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Rannazzisi follows:]
Statement of Joseph T. Rannazzisi, Deputy Director, Office of Diversion 
                Control, Drug Enforcement Administration
    Chairman Grassley, Co-Chairman Biden and distinguished members of 
the Senate Caucus on International Narcotics Control, on behalf of 
Administrator Karen Tandy, I appreciate your invitation to testify 
today on the importance of fighting the growing abuse of steroids in 
this country.

                                OVERVIEW
    The issue of steroid trafficking and abuse continues to receive 
national and international attention in the context of professional 
sports, as well as the upcoming Olympic Games. The importance of 
stopping steroid abuse extends far beyond the baseball diamond, 
football field or running track. Our focus in this area is the health 
and future of our children. Abuse of anabolic steroids among America's 
youth has reached dangerous levels, and it has placed our children at 
increased risk of heart disease, liver cancer, hypertension, elevated 
cholesterol, depression, stunted growth, and eating disorders, not to 
mention increased episodes of hostility and aggression.
    Anabolic androgenic steroids are synthetic chemicals based on the 
structure and pharmacology of testosterone originally developed in the 
1930's to help rebuild body tissue and prevent breakdown of tissue in 
individuals suffering from debilitating diseases. They promote the 
growth of skeletal muscle and the development of male sexual 
characteristics, in addition to other effects. Their popularity with 
athletes exists due to the muscle development and physical performance 
enhancements they provide. Unfortunately, this popularity has filtered 
down to our nation's teenagers and young athletes, who are lured by 
easy shortcuts to greater athletic prowess and more muscular physiques.

           STEROID ABUSE BY ADOLESCENTS AND AMATEUR ATHLETES
    Steroid abuse was once viewed as a problem associated only with 
bodybuilders and professional athletes. Though these segments of the 
population continue to experience steroid abuse, use among young 
Americans has now reached an alarming level. The 2003 Monitoring the 
Future Study conducted by the University of Michigan indicates that 
approximately 3.5 percent of American high school students have used 
illegal anabolic steroids at least once by grade 12. In that same 
study, an incredible 45 percent of all 12th graders did not believe 
taking steroids posed a great risk.
    This report came on the heels of earlier studies, including the 
National Institute of Drug Abuse (NIDA) report of 1999, which stated 
that more than a half million 8th and l0th grade students where using 
anabolic steroids. A Youth Risk Behavior Surveillance Survey conducted 
by The Centers for Disease Control and Prevention (CDC) indicated that 
in 2001, five percent of all high school students reported use of 
steroids pills/injections without a physician prescription during their 
lifetimes.
    Compounding the dangerous misconception among many young people 
that steroid use is harmless is the high-profile use of steroids among 
professional athletes, who our nation's youth often idolize and seek to 
emulate. Sports figures have been revered in the United States for 
generations, and many are viewed as national heroes. Consequently, 
sports figures serve as prominent role models for many of our nation's 
younger citizens. The abuse of steroids by those in the athletic 
spotlight has not gone unnoticed by our country's youth and young 
athletes. In an effort to address the problem of steroid abuse, 
President Bush, in his State of the Union Address, stressed to players, 
coaches, team owners and union representatives ``to take the lead, to 
send the right signal, to get tough, and to get rid of steroids now.''
    The negative effects of long term anabolic steroid use are well 
documented. They include damage to the liver, kidney, heart, and sexual 
organs. Their use can also prevent children from reaching their full 
height. Moreover, abuse often elevates cholesterol and causes 
cardiovascular weakening, combined with hypertension. And because 
steroids are commonly injected, needle sharing can transmit blood-borne 
diseases such as HIV and AIDS. Steroids use can also cause uncontrolled 
outbursts of anger, frustration or combativeness resulting in wanton 
acts of violence. These outbursts are commonly referred to as ``roid 
rage.'' Steroid abusers may also become addicted to the drugs, as 
evidenced by their continued use of the substances, in spite of the 
physical and psychological effects they may be experiencing.

                THE ANABOLIC STEROID CONTROL ACT OF 1990
    Despite these clear health risks, the rapid evolution of new 
steroids has made it difficult for law enforcement to keep up, because 
each specific chemical formulation is required to be considered as a 
separate drug. In its initial attempt to regulate steroid abuse, 
Congress passed the Anabolic Steroid Control Act of 1990 (ASCA), which 
scheduled anabolic steroids as a class of drugs and specifically listed 
27 as controlled substances. In addition, Congress anticipated that 
future steroids would ultimately infiltrate the anabolic steroid black-
market and crafted a four-part definition that the DEA could use to 
administratively classify new steroids as Schedule III anabolic 
steroids. All four of the following questions needed to be answered:

    <bullet> Is the steroid chemically related to testosterone?
    <bullet> Is the steroid pharmacologically related to testosterone?
    <bullet> Is the steroid an estrogen, progestin, or corticosteroid?
    <bullet> Does the steroid promote muscle growth?

    The four-part test was first considered by the DEA in 1999, when it 
determined that the substance androstenedione met the first three 
criteria required under the 1990 legislation, but has been unable to 
make a finding regarding the fourth criteria, due to a lack of accepted 
methodology available to validate the final requirement for muscle 
growth. This meant that Congress had provided the DEA with the 
blueprint for scheduling steroids, but the scientific community had yet 
to develop a study that accurately quantified the promotion of muscle 
growth. This major stumbling block provided a legal loophole for 
traffickers of anabolic steroids to continue marketing their dangerous 
drugs as dietary supplements.
    Consequently, the DEA has had to initiate and fund studies to 
develop animal models that could quantify the effects of steroids on 
muscle. For example, the DEA is currently cosponsoring a three year 
study in New York City using the guinea pig to evaluate the effects of 
steroids on skeletal muscle growth. Other participating agencies 
include the Office of National Drug Control Policy (ONDCP) and several 
branches of the National Institutes of Health, including the National 
Institute on Drug Abuse (NIDA). The first phase has been completed, and 
the second phase is scheduled for completion in September 2004. This 
model will then be used to evaluate the effects of skeletal muscular 
growth from two substances: testosterone precursors and nandrolone 
precursors. Both of these steroids are now openly sold in dietary 
supplement products. The DEA is also funding a study in Seattle, 
Washington, using an immature rat as a model. In conjunction with the 
New York study, the development of skeletal muscular growth using 
steroids currently sold in dietary supplements is being examined. We 
anticipate this study will be completed by October 2004.
    These two studies have proven both costly and time consuming. By 
contrast, the amount of research and time required to introduce a new 
steroid into the dietary supplement market is minimal. The end result 
has been an increase in the number of steroids available in dietary 
supplement products. Again, the ongoing requirement that the DEA must 
first scientifically validate muscle growth is a significant impediment 
to effective regulatory oversight of these steroids. This means they 
continue to enter the dietary supplement market and continue to be 
legally purchased by America's youth, athletes, bodybuilders and other 
ill informed individuals who abuse anabolic steroids.
    The DEA supports S. 2195, sponsored by Senators Biden and Hatch, to 
combat steroid trafficking and the resulting abuse by our country's 
youth. The bill provides DEA with two additional tools to shut down the 
steroid trade. First, it gives us clear authority to conduct law 
enforcement operations against trafficking of steroid precursors, as 
well as other steroids such as the designer steroid THG. Until now, 
these steroids have been able to masquerade as harmless dietary 
supplements. This bill will finally call these steroids what they are--
dangerous drugs. Second, this legislation removes the enormous 
stumbling block to taking these steroids off the shelf, by removing the 
requirement for repetitive, lengthy and expensive testing to prove 
muscle growth. It also will provide a foundation to jumpstart our 
future efforts by adding more than two dozen known dangerous steroids 
to the list of controlled substances. That list will expand our ability 
to evaluate new steroids that may be developed.

          DEA'S EFFORTS AGAINST STEROID TRAFFICKING AND ABUSE
    Anabolic steroids are uncontrolled in many countries, which results 
in a virtual unlimited supply of steroids world-wide. Anabolic steroids 
are frequently smuggled into the United States from Mexico by U.S. 
citizens who travel there to purchase them without a prescription. In 
addition, criminal organizations of Russian, Romanian, and Greek 
nationals are significant traffickers of steroids, and are responsible 
for substantial shipments of steroids entering the United States. 
Domestically, illicit steroids are often sold at gymnasiums and 
bodybuilding/weightlifting competitions, where sellers obtained them 
through theft and fraudulent prescriptions. The Internet has also 
become an avenue to obtain steroids, which are often times advertised 
through bodybuilding and fitness websites and message boards.
    Overall, the DEA has increased its enforcement efforts against 
anabolic steroids. In 2001, we initiated 52 steroid cases. Last year, 
87 investigations were launched. In one example, during October 2002, 
the DEA arrested eight individuals involved in the largest ketamine 
manufacturing and trafficking organization in North America. Included 
in the arrests were the owner of Ttokkyo Laboratorios and their sole 
Mexican distributor arrested in Panama. At the time, Ttokkyo was the 
largest manufacturer of anabolic steroids in Mexico and supplier to 
major U.S. distributors. This international ketamine and anabolic 
steroid trafficking organization in Mexico smuggled thousands of vials 
of ketamine and steroids to California, New York, New Jersey, and 
Florida. Among the Schedule III steroids being smuggled were 
methandienone, nandrolone, testerone, and oxandrolone.
    Since initiating our Demand Reduction Program in 1986, the DEA has 
worked with coaches across the country to increase their understanding 
of the problems associated with illegal drugs and steroid abuse in 
sports. Through the DEA's Demand Reduction Program, our Demand 
Reduction Coordinators (DRCs) in our field divisions also work with 
youth, athletes and parents to educate and heighten their awareness 
about the abuse of steroids and other performance enhancing drugs in 
sports. These efforts have included presentations to university 
athletic teams, Sports and Drug Awareness Programs. In many of these 
programs, the DEA utilizes coaches and professional athletes to assist 
in informing and educating the public.
    The DEA has also developed literature on the dangers of steroid 
abuse and has made this information available through our website. We 
are also working to include information on steroid abuse in our 
upcoming museum exhibit that will be featured in New York City. The DEA 
continues to seek methods to educate the public about these dangerous 
drugs, as we believe that education is the most important aspect in 
curtailing abuse.

                               CONCLUSION
    The abuse of steroids has become a national concern. The 
idolization of sports heroes and the enticement of improved athletic 
performance have led many of our nation's youth to turn to steroids. In 
order to effectively battle these dangerous drugs, the DEA has 
continued to conduct investigations targeting significant traffickers 
of steroids, has continued to work to inform and educate the public on 
the dangers of steroids and has continued to initiate and fund studies 
in accordance with the Anabolic Steroid Control Act of 1990.
    Mr. Chairman, thank you for your recognition of this important 
issue and the opportunity to testify here today. I will be happy to 
answer any questions you may have.

    Chairman Grassley. Thank you for your testimony.
    Now, Mr. Madden.

STATEMENT OF TERRENCE P. MADDEN, CHIEF EXECUTIVE OFFICER, U.S. 
                       ANTI-DOPING AGENCY

    Mr. Madden. Mr. Chairman, good morning. My name is Terry 
Madden. Thank you for the opportunity to testify. Today I come 
to you as the CEO of the United States Anti-Doping Agency, 
which has been recognized by Congress as the independent, 
national anti-doping agency for Olympic and Paralympic sport in 
the United States. Our mission is to protect and preserve the 
health of athletes, the integrity of competition, and the well-
being of sport through the elimination of doping. Over the last 
year, we conducted more than 7,000 tests for steroids and other 
prohibited doping substances.
    I am here today to speak to you about the increasing number 
of products sold over-the-counter in the United States that 
contain anabolic steroid precursors. These products, marketed 
and sold as dietary supplements, contain substances, such as 
androstenedione and norandrostenedione. These substances are 
one chemical step away from anabolic steroids. Once ingested, 
these products are converted within the body into anabolic 
steroids. While this is a problem that affects athletes, it is, 
in truth, a significant public health issue that transcends 
sport and places American consumers at risk.
    The perils of anabolic steroids are well known. In Olympic 
sport, the most notable, systematic state-supported program of 
doping with anabolic steroids was conducted by the East Germans 
from 1974 until the Berlin Wall fell. The results of this 
program have since been substantiated through the testimony of 
many of the athletes themselves, their coaches, and doctors 
during the East German doping trials. One of the anabolic 
substances developed by the East Germans as part of their 
doping program was androstenedione. In the body, 
androstenedione metabolizes into the anabolic steroid 
testosterone and other steroids.
    The documented side effects of steroids and steroid 
precursors among these East German athletes, particularly women 
athletes, are severe and include effects on the liver and 
reproductive system, susceptibility to cancers, and permanent 
masculinization of women. Other side effects include growth 
arrest in adolescents and shrinking of testicles and impotence 
in men.
    Today, American consumers can walk into their corner 
nutrition store and buy products containing andro. After 
professional athletes acknowledged that they used andro, sales 
of these supplements in the United States dramatically 
increased. This phenomenal demand, particularly among 
teenagers, led to the mass marketing of other steroid 
precursors like 19-norandro, which metabolizes in the body into 
the steroid nandrolone, another controlled substance. Now the 
nutrition store shelves and the Internet are flooded with 
products containing these steroid precursors. Further, the 
manufacturers of these substances attempt to take advantage of 
DSHEA (Dietary Supplement Health and Education Act) by touting 
these substances as ``natural'' and implying in their 
advertising that ``natural'' equals safe.
    Under the current regulatory scheme, a manufacturer is not 
required to test its steroid precursor product for either side 
effects or purity prior to putting it on the shelf. This is of 
particular concern when women and adolescents are considered. 
Instead, the burden rests on the Government agencies to prove 
that a particular product is harmful. However, by the time 
action is taken against a specific product, an unscrupulous 
manufacturer could simply make a minor chemical change and 
reintroduce the product.
    The marketers of these products glorify the muscle-building 
qualities of these substances and do everything possible to 
reinforce the association between these products and controlled 
anabolic steroids. These products are marketed under names that 
reinforce their connection to anabolic steroids, including 
``Cycloroid,'' ``Masterbolan,'' ``Anabol-X,'' ``Paradrol,'' and 
``Animal Stak.'' These products are advertised as equal to or 
better than the ``real steroids'' and promise the user huge 
gains in muscle mass. The advertising also stresses that these 
products are ``legal'' in order to raise the implication that 
they are safe.
    In a society where high school athletes can sign 
multimillion-dollar endorsement contracts, we cannot expect 
teenagers to ignore advertisements claiming that these products 
are safe alternatives to steroids and will make them 
``ripped,'' ``huge,'' improve their athletic performance, and 
give them the body of their dreams.
    For Olympic athletes, who know to avoid these products, 
there remains another concern. In increasing numbers, athletes 
are failing doping tests after taking these mis-labeled dietary 
supplements. Studies have shown that an alarmingly high 
percentage of dietary supplements contain doping substances 
that are not disclosed on the label. For example, a recent 
study of 624 dietary supplements by the International Olympic 
Committee found that 41 percent of the products from American 
companies contained a steroid precursor or banned substance not 
disclosed on the label.
    USADA believes that the current effectively unregulated 
availability of products containing precursors in the United 
States is a health crisis that affects not just Olympic 
athletes, but every American teenager who dreams of becoming a 
professional or Olympic athlete and every consumer who takes 
one of these products without being informed of the risks. 
Additionally, because of the risk of contamination, American 
consumers may unknowingly be ingesting steroid precursors.
    USADA feels strongly that research and education of 
athletes regarding the medical and ethical issues with taking 
performance-enhancing substances are an important part of the 
drug deterrence strategy. Members of USADA staff have made more 
than 100 presentations before more than 4,600 athletes, 
coaches, and parents in the last 2 years to discuss drug 
testing and the dangers of performance-enhancing drugs. USADA 
has also been part of a pilot program entitled ``100 Percent 
Me'' with Scholastic magazine, which guides fifth-grade 
students to make good, ethical, and healthy lifestyle choices, 
including not using drugs. Our intent is to educate the next 
generation of citizens and athletes about the benefits of doing 
things right. Finally, USADA has invested $3.7 million in the 
past 2 years and committed another $1.4 million for the next 2 
years to develop new tests and testing strategies. New tests 
are now beginning to appear as a result of this investment. In 
addition, a research project on the ethical aspects of 
performance-enhancing drugs in sport is coming to fruition.
    On behalf of the Coalition for Anabolic Steroid Precursor 
and Ephedra Regulation, I would like to thank Senators Biden, 
Grassley, Hatch, and Harkin for their attention to this matter 
and commend their introduction of the Anabolic Steroid Control 
Act of 2004. This important bill amends the Controlled 
Substances Act by scheduling the substances I have discussed 
here today and making it easier to schedule any steroid 
precursors introduced by manufacturers in the future. USADA 
believes that this bill is an appropriate solution to the 
steroid precursors problem.
    Mr. Chairman, I particularly want to thank you and Senator 
Biden for your strong support of the bill. However, I am very 
concerned that consideration of new provisions may kill any 
chance of passage of the bill this year. As you know, Mr. 
Chairman, the House counterpart passed last month 408-3, and I 
am afraid we are running out of time. Later on, I would like to 
submit letters to the record for support from the NFL, Major 
League Baseball, the NBA, the United States Olympic Committee, 
and several health organizations in support of the bill as it 
is this year. We need to get this thing passed and get these 
precursors out of the corner nutrition stores so our teenagers 
and our children will not have access to them.
    Thank you.
    [The prepared statement of Mr. Madden follows:]
       Testimony of Terrence P. Madden, Chief Executive Officer, 
                    United States Anti-Doping Agency
    Mr. Chairman, members of the committee, good morning, my name is 
Terry Madden. Thank you for the opportunity to testify. Today I come to 
you as the CEO of the United States Anti-Doping Agency, which has been 
recognized by Congress as the independent, national anti doping agency 
for Olympic and Paralympic sport in the United States. Our mission is 
to protect and preserve the health of athletes, the integrity of 
competition, and the well-being of sport through the elimination of 
doping. Over the last year, we conducted more than 7,000 tests for 
steroids and other prohibited doping substances.
    I am here today to speak to you about the increasing number of 
products sold over-the-counter in the United States that contain 
anabolic steroid precursors. These products, marketed and sold as 
dietary supplements, contain substances, such as androstenedione and 
norandrostenedione. These substances are one chemical step away from 
anabolic steroids. Once ingested these products are converted within 
the body into anabolic steroids. While this is a problem that affects 
athletes, it is, in truth, a significant public health issue that 
transcends sport and places American consumers at risk.
    The perils of anabolic steroid use are well known. In Olympic 
sport, the most notable, systematic state-supported program of doping 
with anabolic steroids was conducted by the East Germans from 1974 
until the Berlin Wall fell. The results of this program have since been 
substantiated through the testimony of many of the athletes themselves, 
their coaches and doctors during the East German doping trials. One of 
the anabolic substances developed by the East Germans as part of their 
doping program was androstenedione. In the body, androstenedione 
metabolizes into the anabolic steroid, testosterone, and other 
steroids.
    The documented side effects of steroids and steroid precursors 
among these East German athletes, particularly women athletes, are 
severe and include effects on the liver and reproductive system, 
susceptibility to cancers, and permanent masculinization of women. 
Other side effects include growth arrest in adolescents, and shrinking 
of testicles and impotence in men.
    Today, American consumers can walk into their corner nutrition 
store and buy products containing androstenedione. After professional 
athletes acknowledged that they used androstenedione, sales of these 
supplements in the United States dramatically increased. This 
phenomenal demand, particularly among teenagers, led to the mass 
marketing of other steroid precursors like 19-norandrostenedione, which 
metabolizes in the body into the steroid nandrolone, another controlled 
substance. Now the nutrition store shelves, and the internet, are 
flooded with products containing these steroid precursors. Further, the 
manufacturers of these substances attempt to take advantage of DSHEA by 
touting these substances as ``natural,'' and implying in their 
advertising that ``natural'' equals safe.
    Under the current regulatory scheme, a manufacturer is not required 
to test its steroid precursor product for either side effects or purity 
prior to putting it on the shelf. This is of particular concern when 
women and adolescents are considered. Instead, the burden rests on the 
government agencies to prove that a particular product is harmful. 
However, by the time action is taken against a specific product, an 
unscrupulous manufacturer could simply make a minor chemical change and 
reintroduce the product.
    The marketers of these products glorify the muscle-building 
qualities of these substances and do everything possible to reinforce 
the association between these products and controlled anabolic 
steroids. These products are marketed under names that reinforce their 
connection to anabolic steroids, including ``Cycloroid,'' 
``Masterbolan,'' ``Anabol-X,'' ``Paradrol,'' and ``Animal Stak.'' These 
products are advertised as equal to or better than the ``real 
steroids'' and promise the user huge gains in muscle mass. The 
advertising also stresses that these products are ``legal'' in order to 
raise the implication that they must be safe.
    In a society where high school athletes can sign multi-million 
dollar endorsement contracts, we cannot expect teenagers to ignore 
advertisements claiming that these products are ``safe alternatives'' 
to steroids and will make them ``ripped,'' ``huge,'' improve their 
athletic performance and give them the body of their dreams.
    For Olympic athletes, who know to avoid these products, there 
remains another concern. In increasing numbers, athletes are failing 
doping tests after taking mis-labeled dietary supplements. Studies have 
shown that an alarmingly high percentage of dietary supplements contain 
doping substances that are not disclosed on the label. For example, a 
recent study of 624 dietary supplements by the International Olympic 
Committee found that 41% of the products from American companies 
contained a steroid precursor or banned substance not disclosed on the 
label.
    USADA believes that the current effectively unregulated 
availability of products containing steroid precursors in the United 
States is a health crisis that affects not just Olympic athletes, but 
every American teenager who dreams of becoming a professional or 
Olympic athlete, and every consumer who takes one of these products 
without being informed of the risks. Additionally, because of the risk 
of contamination, American consumers may unknowingly be ingesting 
steroid precursors.
    USADA feels strongly that research and education of athletes 
regarding the medical and ethical issues with taking performance-
enhancing substances are an important part of the drug deterrence 
strategy. Members of USADA staff have made more than 100 presentations 
before more than 4600 athletes, coaches and parents in 2003-2004 to 
discuss drug testing and the dangers of performance-enhancing drugs. 
USADA has also been part of a pilot program entitled ``100% Me'' with 
Scholastic Magazine which guides 5th grade students to make good 
ethical and healthy life-style choices--including not using drugs. Our 
intent is to educate the next generation of citizens and athletes about 
the benefits of doing things right. Finally, USADA has invested $3.7 
million in the past two years and committed $1.4 million for the next 
two years to develop new tests and testing strategies. New tests are 
now beginning to appear as a result of this investment. In addition, a 
research project on the ethical aspects of performance enhancing drugs 
in sport is coming to fruition.
    On behalf of the Coalition for Anabolic Steroid Precursor and 
Ephedra Regulation (CASPER), I would like to thank Senator Biden, 
Senator Hatch, Senator Grassley and Senator Harkin for their attention 
to this matter and commend their introduction of The Anabolic Steroid 
Control Act of 2004. This important bill amends the Controlled 
Substances Act by scheduling the substances I have discussed here today 
and making it easier to schedule any anabolic steroid precursors 
introduced by manufacturers in the future. USADA believes that this 
bill is an appropriate solution to the steroid precursors problem. 
Similarly, I would like to thank Congressman Sweeney, Congressman 
Osborne, and Congressman Sensenbrenner for their leadership on this 
issue and the passage of Anabolic Steroid Control Act of 2004 in the 
House of Representatives. Finally, I would like to thank this Committee 
for its time and its interest in this important public health issue. 
Thank you.

    Chairman Grassley. Thank you for your strong statement.
    Before I go to Mr. Martin, I will call on Senator Biden for 
an opening statement.

              STATEMENT OF HON. JOSEPH R. BIDEN, 
                   U.S. SENATOR FROM DELAWARE

    Senator Biden. I will be very brief because I am anxious to 
hear the witnesses. I would ask unanimous consent that my 
entire opening statement be placed in the record.
    Chairman Grassley. It will be.
    Senator Biden. And, Mr. Chairman, just let me say two 
things.
    Number one, thank you for holding the hearing. You and I 
have worked on this issue for a long time. Quite frankly, 
gentlemen, I thought I had solved this problem years ago with 
the first steroid bill that I introduced over a decade ago. But 
I should have been aware, with all my years on the Judiciary 
Committee and working in the drug area, that designer drugs and 
scientists have incredible imaginations, and it took very 
little time for innovative scientists to develop new 
substitutes and rediscover old ones. So we are trying to 
correct that right now, and I thank you all for your testimony.
    The point I would like to speak to very briefly is this: I 
think that Mr. Madden makes an extremely important point: time 
is running out. Although some of my colleagues--and one of them 
is a Democrat, so this is not a partisan thing--are, quite 
frankly, holding this bill hostage to get another good thing 
done, what he wants to do is what I want to do, too. But I, 
quite frankly, think it is ridiculous for us to let this year 
go by, as we both know the calendar is dwindling. It seems to 
the rest of America the end of the year is a long way off, but 
this session of the United States Congress is only days off--I 
mean days.
    Chairman Grassley. Thirty days.
    Senator Biden. Thirty days off. And it is not a criticism 
of anybody. We have two conventions. We have a major 
Presidential--all Presidential elections are major--but a 
Presidential election, and so we do not have much time. So I 
would urge, I publicly urge my colleagues who have additional 
interests--to withhold those interests and let us move on this 
legislation. I thank Mr. Madden and I thank all of you for 
being here. I am anxious to hear the rest of the testimony, and 
I will have questions at the appropriate time Mr. Chairman.
    [The prepared statement of Senator Biden follows:]
                Statement of Hon. Joseph R. Biden, Jr., 
                       U.S. Senator from Delaware
    Mr. Chairman, thank you for convening this hearing today to put the 
spotlight on the issue of the abuse of performance-enhancing drugs by 
adolescents. This is certainly a timely issue with the All Star game 
being played tonight in Houston, the Olympic games around the corner 
and a cloud of suspicion surrounding some of America's top professional 
and Olympic athletes.
    Over a decade ago I introduced a bill to make anabolic steroids 
illegal. After it became law, it took very little time for innovative 
scientists to develop new substances--and rediscover old ones--that 
were legal under of the letter of my law but certainly violated its 
spirit.
    These new substances, called steroid precursors or pro-steroids, 
are one step removed from illegal steroids.
    In the words of the United States Anti-Doping Agency--the folks who 
drug test Olympic athletes--they are ``the functional equivalent of 
steroids.''
    Not only are these substances polluting our professional sports 
leagues and Olympic teams, but use of these harmful substances is also 
is setting a horrible example for our children.
    According to the Kaiser Family Foundation, nearly three-quarters of 
kids say they want to emulate professional athletes.
    But more than half of those kids believe their sports heroes use 
steroids and other performance-enhancing drugs to win.
    The recent 42-count indictment of individuals accused of 
distributing steroids to professional athletes only reinforces that 
view.
    And if you want evidence that an athlete can influence the habits 
of fans, consider this: When Mark McGwire admitted he used andro during 
his home-run record-breaking season, sales of the product soared.
    In my view, access to these performance-enhancing drugs is not only 
a health issue but also a values issue.
    If kids think that all of the best athletes are ``on the juice,'' 
what does that teach them?
    I think it teaches them that they should use drugs to get ahead and 
win the game; that cheating is OK: This offends me to my core.
    The United States is the ultimate meritocracy and it is absolutely 
un-American to take a performance-enhancing drug to get an unfair 
competitive advantage.
    Too many kids and adults believe that supplements will make them 
faster and stronger and never think about the health consequences.
    70 percent of kids and half of parents surveyed were unable to 
identify even one negative side effect associated with performance-
enhancing drugs.
    And 80 percent of kids reported that their parents have never 
talked to them about the dangers of steroid use.
    One of our witnesses today, Dr. Don Catlin, will give us a detailed 
description of some of the side effects of steroid use--they are 
serious and quite graphic in nature.
    The bottom line is this: products that put users at this type of 
risk should not be available over the counter as dietary supplements. 
Period.
    The federal government must stop treating steroid precursors like 
vitamins and classify them as the dangerous drugs that they are.
    In order to accomplish this, last October Senator Grassley and I 
introduced the Anabolic Steroid Control Act. The bill has widespread 
support.
    It has the endorsement of a wide range of medical, athletic and 
drug policy organizations.
    In his State of the Union address, President Bush supported the 
principles behind the legislation when he called on leagues, team 
owners, players and coaches to rid professional sports of performance-
enhancing drugs.
    In March, the Secretary of Health and Human Services, Administrator 
of the Drug Enforcement Administration, and Commissioner of Food and 
Drugs took the President's statement one step further when they held a 
press conference to endorse my bill.
    And last month the House of Representatives passed a companion 
bill, sponsored by Judiciary Committee Chairman Sensenbrenner, by a 
vote of 420 to 3.
    The legislation would add THG, andro and their chemical cousins to 
the list of anabolic steroids controlled under the Controlled 
Substances Act and make it easier for the IDEA to add similar 
substances to that list in the future.
    It also directs the United States Sentencing Commission to review 
the Federal sentencing guidelines for crimes involving anabolic 
steroids and consider increasing them.
    And finally, it authorizes $15 million for school-based programs 
highlighting the harmful effects of anabolic steroids.
    With the Olympic games swiftly approaching and stories about 
athletes and doping scandals in the news nearly every day we have 
unprecedented momentum to pass this bill.
    Yet, the Senate has not acted to move this legislation at all.
    The bill has been held hostage while some of my colleagues try to 
resolve an unrelated issue.
    Meanwhile, steroid precursors remain on the shelves and kids 
continue to buy them.
    This issue is far too important to play politics with.
    I have here two letters urging the Senate to pass this legislation. 
One is from a coalition of 20 sports and medical groups. The other is 
from Major League Baseball, the National Football League, the National 
Basketball Association and the National Collegiate Athletic 
Association. I ask unanimous consent to submit them for the Record.
    It is my sincere hope that all of our witnesses today and all of my 
colleagues will work together to pass this legislation before the 
Senate recesses for the month of August.
    Again, Mr. Chairman, I thank you for convening this hearing today 
and I look forward to frank discussions with our witnesses today.
    Chairman Grassley. Thank you, Senator Biden.
    Now, Mr. Martin, and you gave me greetings from your 
president, who is a former Iowan. Return my greetings to her.

  STATEMENT OF WILLIAM C. MARTIN, DIRECTOR OF INTERCOLLEGIATE 
     ATHLETICS, UNIVERSITY OF MICHIGAN, ANN ARBOR, MICHIGAN

    Mr. Martin. Mr. Chairman, I will certainly do that, and 
thank you for inviting me today. I am Bill Martin, the Athletic 
Director at the University of Michigan. I have also just 
completed a 16-month stint as the president of the United 
States Olympic Committee and served on that board for 8 years.
    The issue before us today is one of the most serious we 
face in amateur sports. The rising use of steroids and steroid 
precursors is troubling on any number of levels. By far, the 
health of our young people is of primary concern. So, too, is 
the impact of the use of these performance-enhancing drugs on 
the integrity of sports themselves. I salute you and your 
Caucus for taking a look at this issue.
    I want to make three general comments about drugs and 
amateur athletics. First, I will discuss the measures we at the 
University of Michigan, and within the NCAA, are taking to 
educate our athletes about the dangers of these substances. 
Secondly, I want to discuss the strong enforcement mechanisms 
we have in place to deal with misuse. And finally, I will speak 
very briefly about the need for more uniformity among the 
various sports and sports organizations in dealing with this 
issue.
    At Michigan, we have taken these issues very seriously for 
a long time. Our first priority has been to educate our 
athletes about the dangers of steroids and other drugs. We owe 
it to the athletes and their families to provide the best 
medical care we can, and that includes making sure they 
understand that steroids, dietary supplements, and similar 
drugs can have potentially serious negative health impacts. Let 
me give you an example.
    When creatine first became widely used by athletes, we 
moved aggressively to make sure our student athletes knew that 
we believed this substance was of little benefit and not proven 
safe to use. We focused our students instead on the value of 
good nutrition, keeping hydrated, and training as better 
alternatives to help them become better athletes. We continue 
to this day to strongly discourage the use of this or any other 
dietary supplement, and we have a full-time nutritionist to 
assist in educating our athletes about the dangers of these 
unregulated supplements.
    With steroids and other drugs, we have taken the strong 
NCAA rules and expanded them. As you may know, the NCAA 
maintains a list of banned substances, including steroids, 
stimulants, hormones, and others. Random testing is performed 
at championship events, as well as year-round on campuses 
across our Nation.
    At Michigan, we go beyond NCAA compliance. We push hard on 
the education front, as well as conducting our own random 
testing program. We view this as part of an overall substance 
education program focused not only on steroids and supplements, 
but also on alcohol and other drugs. Should any of our athletes 
test positive for the use of these substances, we immediately 
move ahead to prevent further abuse with education, counseling, 
and treatment. We also increase the frequency of testing of any 
such violator. For a second violation, athletes face suspension 
for at least 10 percent of their competitive season, and 
additional help is provided. Only after being medically cleared 
can an athlete return to competition, and we retain the right 
to impose stronger penalties, if warranted.
    The result of this aggressive oversight is that we have 
seen a reduction in the positive test rate well below the 
national average. In many cases, the positives turned out to be 
from misuse caused by interactions with physician-prescribed 
legal medications. Our entire athletic staff is committed to 
ensuring that these rules are followed, including coaches, 
certified athletic training staff, counselors, and others.
    One thing that would help us in this effort would be some 
set of uniform standards. As technologies evolve in these 
areas, the challenge of having drug-free sports is only 
increasing. There are sometimes differing standards between 
amateur and professional athletes in terms of testing and 
sanctions. Indeed, the banned substance list we use in the NCAA 
is different from that promulgated by the Olympics. I believe 
that the establishment of uniform rules and testing procedures 
across sports and across amateur and professional leagues would 
go a long way towards providing consistent messages to athletes 
and our youth and would greatly simplify enforcement.
    At Michigan, we spend thousands of dollars and a large 
amount of other resources to educate our athletes, conduct 
testing, and make certain our athletes abide by both the spirit 
and the letter of the law. Our sister schools in the Big Ten 
make similar efforts, and I know from my days with the U.S. 
Olympic Committee that that agency's commitment has never been 
higher to fight these substances that can ruin lives and bring 
into doubt the validity of sporting events themselves. Indeed, 
it was the U.S. Olympic Committee that formed USADA, the agency 
that Mr. Madden represents, which is working so hard to help 
rid those sports of steroids and other drugs.
    Let me conclude by commending the legislation that Senator 
Biden and several others of you have put forward to expand the 
list of controlled substances and to continue important 
research in these areas. The NCAA has endorsed that 
legislation, and I personally would urge both the Senate and 
House to adopt it as soon as possible.
    Thank you again for the opportunity to appear here today, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Martin follows:]
    STATEMENT OF WILLIAM C. MARTIN, DONALD R. SHEPHERD DIRECTOR OF 
           INTERCOLLEGIATE ATHLETICS, UNIVERSITY OF MICHIGAN
    Mr. Chairman, Mr. Co-Chairman, Members of the Caucus, good morning 
and thank you for the opportunity to speak with you about a subject I 
take very seriously. My name is Bill Martin. I am the Athletic Director 
at the University of Michigan and I recently stepped down after one 
year as acting President of the United States Olympic Committee, where 
I was actively involved in these same issues. I am pleased to be here 
this morning to discuss the importance of drug education and compliance 
programs at the University and in the collegiate setting.
    We at the University care foremost about educating young people to 
be successful students and athletes. To that end, we believe that 
student-athletes should only use drugs when medically necessary and 
ones deemed permissible by the National Collegiate Athletic Association 
(NCAA). At a time in sport when ``bigger is better,'' when athletes 
hear about and often seek that magical drug to help them get bigger, 
faster, and stronger (in addition to, or sometimes in place of, hard 
work and sport-specific training), it is now more important than ever 
for universities to help lead the charge against inappropriate drug use 
in sport.
    This morning, I would like to first highlight the importance of 
including drug education in university athletic programs to help in 
this difficult challenge, and help illustrate this by our university's 
response when the performance enhancing supplement creatine was 
introduced. Second, I will discuss the NCAA's commitment, and the 
expansion of these concepts at our university, including information 
about our internal drug testing program. And finally, I will briefly 
discuss some of the challenges we face in the future and the importance 
of unifying standards and promoting educational efforts for our future 
student-athletes.

                      THE IMPORTANCE OF EDUCATION
    The difficult challenge facing institutional committees asked to 
address drug use in sport has never been greater. Surveys continue to 
report an increasing use of drugs and related performance-enhancing 
substances by athletes of all ages and skill levels irrespective of 
potential risks. Stellar individual performances are more often than 
not immediately followed by rumors of use of performance-enhancers. 
Suspensions of high-profile athletes are not uncommon, and terms like 
``andro'' and ``ephedra'' seem to dominate sports page headlines as 
frequently as ``goals scored'' and ``win/loss records.'' The integrity 
of sport is threatened as is the health and well-being of our athletes; 
young and old, male and female, recreational and elite.
    Our athletic department's stance on performance-enhancing 
substances was best reflected in our approach with creatine. Promoted 
as a performance-enhancing ``dietary supplement'' that can be purchased 
``over the counter'' with virtually no risk, the use of creatine 
accelerated like a tidal wave through athletic campuses across the 
country, with the majority of institutions supporting its use and many 
providing it for their student-athletes. The pressures to jump on board 
and promote creatine use magnified, despite little reputable data to 
support the claims of performance enhancement and no studies proving it 
was safe long-term.
    In accordance with both our institution's and athletic department's 
mission statements, it was felt that our most important role was to 
educate: to provide our student-athletes not only with the highest 
quality medical care, but also with the highest quality programs in 
preventative medicine and health care education. Based on a thorough 
and ongoing review of the available literature and consultation with 
experts both at our institution and others throughout the country, we 
educate each student-athlete at his or her initial pre-participation 
evaluation of our view of performance-enhancing drugs, emphasizing our 
stance and how those conclusions were reached. We strongly discourage 
the use of creatine, and emphasize good nutrition, hydration, and 
training programs as the critical components to helping our student-
athletes reach their goals.
    After the creatine surge, the explosion of other dietary 
supplements marketed as performance enhancers has further increased 
confusion and controversy among student-athletes. As a result of the 
Dietary Supplement and Health Education Act of 1994, the U.S. Food and 
Drug Administration (FDA) does not tightly regulate the supplement 
industry, and thus, the purity and safety of nutritional supplements 
are a real concern. To help our student-athletes, we have continually 
re-evaluated and when warranted, slightly modified our nutritional 
supplement policy, but the conclusion has not changed: the University 
of Michigan's Athletic Medicine staff strongly discourages the use of 
creatine and other ``performance enhancing'' dietary supplements as an 
adjunct to a student-athlete's training regimen. In addition, our 
sports nutritionist is now on-site full time during the academic year 
to help answer questions and provide accurate information on 
nutritional supplements.
    The NCAA is also strongly committed to education about drug use by 
student athletes, including drugs used in an attempt to enhance 
athletic performance (such as anabolic steroids including 
androstenedione and THG, amphetamines, ephedrine to name a few) as well 
as those used ``recreationally'' (i.e. alcohol, marijuana, cocaine, 
PCP, and many others). Use of such drugs compromises the rules and 
ethics that govern athletic competition.
    university and ncaa working together on testing and enforcement
    It is a guiding general principle of the NCAA that each member 
institution work to protect the health of and provide a save 
environment for each of its participating student-athletes. To that 
end, the NCAA maintains a banned-substance list of performance 
enhancing drugs and substances that are detrimental to a student-
athletes health (see attached list). Categories of banned substances 
include stimulants, anabolic agents (namely steroids), diuretics/drug 
test manipulators, street drugs, peptide hormones (such as human growth 
hormone), and beta-blockers, which are banned for the specific sport of 
rifle. Drug testing is performed at championship events and also year-
round on campuses as part of a random testing program for athletes in 
selected sports. A student-athlete who tests positive is suspended for 
a minimum of one competitive season. The NCAA also has student-athletes 
from all sports complete drug use surveys on a regular basis to help 
institutions develop appropriate and up-to-date educational and 
treatment programs.
    The NCAA Committee on Competitive Safeguards and Medical Aspects of 
Sports recommends policies and procedures to the Executive Committee 
and hears drug testing appeals. The NCAA education services staff 
provides support to the NCAA drug education and drug-testing 
subcommittee of the NCAA Committee on Competitive Safeguards and 
Medical Aspects of Sports, which hears appeals to positive drug-testing 
cases. The Executive Committee, however, maintains final authority over 
the procedures and implementation of the NCAA drug-testing program. 
NCAA member institutions are dedicated to the ideal of fair and 
equitable competition as well as the protection of the health, safety 
and well-being of the student-athletes. The NCAA drug testing program 
was created so that no participant has an artificially induced 
advantage, that no participant might be pressured to use chemical 
substances to remain competitive and to safeguard the health and safety 
of participants.
    Since 1999, NCAA drug-testing programs have been administered by 
The National Center for Drug Free Sport. The Center randomly selects 
football and track and field programs for short-notice testing (less 
than 48 hours notice to the schools). The Center also randomly selects 
athletes for testing based on the institutional squad lists. The Center 
provides collectors, supplies, on-site support and administrative 
services for the program along with results reporting and positive-case 
administration. The Center currently provides services to the NCAA, the 
National Football League, and the International All-Around 
Weightlifting Association.
    At the University of Michigan, in addition to compliance with the 
NCAA programs, we have instituted our own internal drug education 
program. Although drug testing is a part of our program, it is only a 
small part, with the emphasis placed on drug education. Our program 
would perhaps be better termed a substance education program, as the 
program includes additional information regarding nutritional 
supplements, vitamins, and alcohol, substances not typically thought of 
as drugs by many in society.
    A particular emphasis of our program is prevention. At the time of 
the student-athlete's first contact with our athletic medicine staff, 
direct questions about substance use are asked as part of the pre-
participation evaluation. Also at that time, questions are answered and 
information is given discouraging the use of nutritional supplements 
(see attached Ephedra, Creatine, & Related Dietary Supplements). 
Teaching sessions led by our counselors and sports nutritionist, 
impromptu talks led by strength and conditioning staff, and 
informational pamphlets and posters made available and visible in our 
athletic training rooms continually help reinforce our message.
    Our internal drug-testing program at the University of Michigan was 
implemented to augment all these efforts to create a drug-free 
environment for student-athletes, in addition to helping prepare our 
student-athletes for potential testing by the NCAA. All student-
athletes encompassing every varsity sport at The University are subject 
to random, year-round testing. In addition, student-athletes are 
sometimes tested based on reasonable suspicion.
    When a first positive test occurs, and it is confirmed a ``true 
positive'' upon meeting with our team physician (and not a positive 
test resulting from a prescribed medication such as a narcotic pain 
reliever or a stimulant for Attention Deficit Disorder (ADD), or a 
dietary ingestion such as a poppy seed bagel), the emphasis is on 
education. The extent and severity of the substance use is determined, 
and the student-athlete referred for education, counseling, and 
treatment, with a substance-abuse professional involved if deemed 
necessary. The student-athlete is also informed he or she will be 
subject to more frequent follow-up drug testing.
    To be effective, we believe any drug-testing program must have some 
punitive component, and for a second positive test, the student-athlete 
is suspended from competition for a minimum of 10% of his or her 
competitive season. The student-athlete is re-evaluated and further 
help provided. If the student-athlete successfully completes the 
treatment program prescribed, he or she is cleared to return to 
participation. A third positive test results in a minimum of one year 
suspension from all team related activities. In addition, the student-
athlete's head coach or I, the Athletic Director, may impose more 
stringent disciplinary action after any positive test.
    Our program's continued success is dependent on the commitment and 
support of the entire athletic department staff: from team physicians 
to administrators, athletic trainers to strength and conditioning 
coaches, nutritionists to counselors, academic support personnel to all 
coaches. Routine communication and collaboration amongst all these 
groups is essential to achieving the goal of a drug-free environment 
for our student-athletes. However, the responsibility to stay drug-free 
ultimately remains squarely on the shoulder of the student-athlete. And 
as athletic department staff at the University of Michigan, a 
University committed to higher education and learning, it is our 
obligation to provide the educational support and timely advice needed 
to help our student-athletes reach that goal and achieve success.
    I find recent statistics showing increased steroid and other drug 
use among high school and junior high athletes extremely disturbing. In 
the future, efforts must focus on developing and implementing drug 
educational programs at these levels, well before the student-athletes 
compete at the university level. Time, energy, and dollars spent 
attacking this problem in high schools, junior highs, and even youth 
sport programs is a good investment: an investment to reaching the 
ultimate goal of drug-free sports.

                     THE NEED FOR UNIFIED STANDARDS
    As technologies evolve, and terms like genetic engineering, bionic 
implants, and ``designer'' steroids further complicate the landscape 
for drug policy-making committees, reaching this goal is increasingly 
difficult--especially difficult when one considers human nature. In 
addition, there are differing standards that exist for athletes at 
different levels in different sports. Professional athletes backed by 
strong player unions are not subjected to the same rigorous testing 
programs and sanctions as are amateur athletes participating in Olympic 
training programs. And there is no uniformity across sport as to what 
is permissible, as the banned substance list for Olympic athletes is 
different and more exhaustive than the NCAA banned substance list.
    I believe the establishment of uniform rules and testing procedures 
across sports and across amateur and professional leagues would go a 
long way toward providing consistent messages to athletes and would 
greatly simplify enforcement. To that end, I would encourage my 
colleagues at all levels to work on developing guidelines.
    In recent years, many universities across the country, like 
Michigan, have intensified and expanded their drug education programs. 
In the Big Ten Conference, each institution commits a large amount of 
resources and spends thousands of dollars yearly testing and educating 
their student-athletes, and this commitment can only increase. The 
national and international efforts are evolving rapidly, helped in 
large part by the establishment of the World Anti-doping Agency (WADA). 
This agency, supported by many governments and the International 
Olympic Committee, heads the difficult task of unifying a global effort 
to address drugs in sport and help develop, implement, and enforce 
appropriate drug use policies and programs. Although simply a small 
part of the increased global effort to eliminate inappropriate and 
unethical drug use in sport, the University of Michigan Athletic 
Department remains steadfastly committed to help preserve the quality 
and integrity of sport.

                               CONCLUSION
    Mr. Chairman, the issue of steroids and other performance-enhancing 
drugs in sports requires all of us--amateur and professional alike--to 
re-double our efforts to make sure we are sending a consistent message. 
The NCAA and the University of Michigan fully support the efforts of 
this Caucus and Senator Biden's bill, The Anabolic Steroid Control Act 
of 2004, in shedding light on this important subject. NCAA President 
Myles Brand has expressed his strong support saying, ``this legislation 
is vital to the student-athlete and public welfare because although 
steroid precursors are as dangerous as illegal anabolic steroids, they 
are not only legal, but free from federal regulation.'' I urge the 
members of this Caucus to continue to work to pass this legislation 
this year.
    At the University of Michigan, I believe we are working harder than 
ever to educate and enforce our rules to both ensure the health of our 
athletes and also to protect the integrity of the sports these athletes 
play. To do any less is a disservice both to the athletes and to the 
nation. Thank you for the opportunity to appear here today, and I look 
forward to answering any questions.

    Chairman Grassley. Thank you very much. I will start with 
Mr. Rannazzisi.
    What are we doing to prosecute those who sell illegal 
steroids on the Internet, as I had several examples before us 
in my opening statement?
    Mr. Rannazzisi. Well, first of all, again, Chairman 
Grassley and Co-Chairman Biden, I want to thank you very much 
for this legislation, your support and work on this 
legislation. It is going to help greatly.
    As far as the Internet goes, every day we have agents, 
investigators, and intelligence analysts going in and out of 
websites on the Internet. It is what they do. They are looking 
for rogue sites. When they identify these rogue sites, 
investigations are initiated.
    Unfortunately, on the designer steroids, the steroids that 
are created to circumvent the CSA, we have a difficult time 
prosecuting those cases because, first of all, it takes so long 
to get them regulated and controlled. Currently, they are 
uncontrolled so we cannot do anything with them.
    Now, as far as the anabolic steroids that are under the 
statute right now, they are controlled in Schedule III. When we 
find those sites, we actively investigate them, and we do 
prosecute them. We have several ongoing investigations now 
where drugs are coming up mostly from foreign sources into the 
U.S., either by smuggling, which is the main route into the 
country, or by rogue registrants who are writing prescriptions 
for them outside of the scope of medical practice or are 
distributing them through wholesalers outside of their 
distribution.
    Chairman Grassley. I can give you an example that eBay has 
over 20 sales for steroids right now--right now meaning today. 
Would you be in a position to stop that by getting it off of 
eBay, as an example?
    Mr. Rannazzisi. Well, we do have a liaison with eBay, for 
instance, on precursor chemicals that have shown up on eBay 
before. And I will go back and ensure that we are in contact 
with eBay to find out who is distributing those anabolics 
through the website.
    Chairman Grassley. Okay. Thank you.
    Again to you, does the sale of illegal steroids have a 
market outside athletes? And is the DEA aware of veterinarians 
or others who may have a legitimate need for steroids pursuing 
illegal steroids?
    Mr. Rannazzisi. Well, outside of athletes, yes, anyone who 
wants artificial performance enhancement, obviously, and anyone 
who is willing to risk adverse effects to reach a desired 
physical endpoint. As far as veterinarians, yes, and other 
practitioners do use steroids, but it is a limited use. I do 
not feel that the use of steroids is that widespread.
    Chairman Grassley. Another question. In addition to the 
DEA, what other Federal agencies or initiatives exist to 
educate young athletes about the dangers of steroids?
    Mr. Rannazzisi. I am sorry. Are you asking what other 
agencies?
    Chairman Grassley. Yes, in addition to DEA.
    Mr. Rannazzisi. As far as education, I really could not 
tell you what other agencies are educating.
    Chairman Grassley. Okay.
    Mr. Rannazzisi. I could give you what we are doing as far 
as education. We are involved extensively with high school and 
middle school athletic coaches and coaches associations. We 
talk to amateur and college teams. We have created literature 
on steroids for different target groups, like ``Steroid Abuse 
for School-Aged Children,'' ``Anabolic Steroids' Hidden 
Dangers,'' and ``Anabolic Steroids in Today's Society.'' We 
have several pamphlets that we distribute when we go out to the 
schools. We make the students and the athletes aware of the 
dangers.
    I have a 17-year-old who is very into working out. It is 
very difficult for him to keep his weight off, and he works 
very hard at it, but I can understand his frustration 
sometimes. And I can understand after looking at athletes and 
certain people who purport that these drugs are great, and you 
will enhance your performance, and you will look better, but he 
knows better. He knows the evils of these drugs. With this 
literature, we hope to get the word out to everybody.
    Chairman Grassley. Mr. Madden, I know you suggested the 
passage of the legislation, and we appreciate that admonition, 
and obviously, as you have heard Senator Biden say, we hope we 
can get that done. But beyond that, if there is one thing that 
you could change today regarding the use of performance-
enhancing drugs in amateur sports, what would that be?
    Mr. Madden. The legislation will take a big step towards 
that. At USADA, we need to increase our testing numbers. We 
need to increase our education; we need to broaden it out. And, 
most of all, we need more research monies for people like Dr. 
Catlin and other people around the world to do research into 
these drugs.
    When we first started, Senator, we thought this was an 
athlete issue 3 years ago. But with Senator Biden's staff and 
ourselves and other Senate staff, this is a health issue for 
our young people. It is a health issue for teenagers, and I 
will tell you right now, this stuff is creeping now down into 
our grade schools and our middle schools.
    People want to look buff. They not only want to perform as 
athletes, but they want to look buff. And this stuff is getting 
down into the lower levels. We need greater education. We need 
a change in the American public's position on drugs and sport. 
Now, hopefully, that would mean we cannot have drugs in sports 
at the professional level, the collegiate level, the high 
school level, and the grade school level. I believe that is 
where the American public wants to go. But right now, the 
public is sitting back and they do not know what is going on 
within a person's body health-wise. They do not know that these 
steroids are illegal, and we need to change that through 
education.
    Chairman Grassley. Where does the motivation for the use of 
steroids begin? You know, in my opening statement I talked 
about coaches and kids wanting to satisfy coaches. Is it with 
the athletes or the coaches or where? I suppose it is all of 
the above, but some other group?
    Mr. Madden. From the BALCO investigation and our work with 
the Department of Justice and the U.S. Attorney for the 
Northern District of California and our speaking with athletes, 
I can assure you that it begins with the coaches. The coaches 
have a strong role to play in this. In our conversations with 
athletes, it has been suggested by their coaches that they are 
near the pinnacle of Olympic sport or professional sport, and 
if they are willing to take this prohibited substance, this 
illegal substance, then they can reach out and fulfill their 
dreams of Olympic medals. And it gets down to base situations 
of money, medals, fame. That is what our athletes want. The 
vast majority of our athletes are clean, but there is a group 
of athletes that will do anything to be successful.
    Chairman Grassley. Mr. Martin, what effect do you believe 
that steroid use has or the perception that use has on the 
Olympics?
    Mr. Martin. We have been fighting steroids in the Olympics 
now, as Mr. Madden said, since the revelations surrounding 
BALCO. Certainly, as Terry mentioned, use of other performance-
enhancing methods and products goes back decades. There is no 
question about it. Why does it happen? I think it is because of 
the reasons that Terry said--fame, riches.
    Do coaches have a role in this? Absolutely they do. When we 
hire a new coach at Michigan, what do I tell them? I tell them: 
You win in the classroom first. These are student-athletes, and 
they are students first. You win in the classroom first. Then 
you win in the community, meaning these kids are good community 
citizens. They contribute to society. I want them on the front 
page of the sports section, not the front page of the first 
section. And then you win on the court of competition.
    So the culture surrounding coaches I think is critical with 
respect to sport in general. That certainly applies at the 
pinnacle, the Olympics, and I think it is going to be very 
important that USADA and the USOC, with the support of 
Washington, start taking a stronger stand at looking at the 
medical folks who are involved in the Olympics, as well as 
their trainers, because that is clearly, in my mind, where it 
starts.
    Chairman Grassley. Senator Biden.
    Senator Biden. Thank you, gentlemen. I think Senator 
Grassley has hit on it. Let's assume for the moment we succeed 
in getting the law changed. Going back to my other hat, back in 
the old days when I was chairman of the Judiciary Committee, I 
spent a lot of time, probably 25 years of my career, on dealing 
with the drug problem period, not just steroids but all drugs. 
I have been working with the DEA for well over two decades.
    The most disturbing thing about the performance-enhancing 
substances that I have read is the Kaiser Family Foundation 
research poll. It said that nearly three-quarters of the kids 
say they want to emulate professional athletes, but more than 
half of these kids believe that their sports heroes are using 
performance-enhancing drugs. I won't name anybody because it 
will by implication implicate them, and I do not know. But 
let's assume Joe DiMaggio was alive still. Joe DiMaggio is my 
hero. Three-quarters of the kids believe that they want to 
emulate the Joe DiMaggios of the world, and half of those kids 
believe that their specific hero uses steroids and uses 
performance-enhancing drugs to win. Now, you guys do this for a 
living, trying to deal with this. To me, as a plain old 
politician, that is a devastating idea that three-quarters of 
the kids want to emulate their heroes and half of that three-
quarters believe their heroes use steroids or performance-
enhancing drugs. It does not take anybody to be a professional 
like what we five do in our business to understand that that is 
a powerful incentive if you already believe that the person you 
want to emulate uses these drugs.
    The second thing I found way back when I first introduced 
the first anabolic steroid prohibition was that most coaches 
were unwilling to speak out about this. Things have changed a 
lot, Mr. Martin, thank goodness. The only coach I could get to 
come to testify was Joe Paterno. Even though I am from Delaware 
and not Pennsylvania, I root for the Nittany Lions because Joe 
Paterno was the only one who had the nerve to show up back over 
a decade ago and say we should stop this. I could not get other 
coaches to do it.
    I guess what I am trying to say is this: It seems to me, as 
a not very successful college athlete--I am referring to 
myself--as someone who desperately wanted to be a successful 
college athlete and saw himself in the same terms as kids that 
you have Director--they define themselves in terms of their 
athleticism. Even if they, in fact, are great students, and 
even if they do other things, these folks who compete think of 
themselves first as athletes. I did not have the capacity, but 
I had the desire. I wonder what I would have done as a six-
foot-one, 155-pound flanker back who had good speed and great 
hands, knowing that across the line that outside linebacker was 
using steroids and could run the 40 in incredible time and was 
235 pounds of muscle. I mean, the incentive to just use these 
drugs to survive--not to win medals, but to keep a starting 
spot on the team--is pretty profound.
    Now, the University of Michigan has an incredible athletic 
program and an incredible academic program as well, but an 
incredible athletic program. But this also goes for kids 
playing Division II football or Division III sports. I mean, 
you know the guy on the other side of the line, and when you 
look across to the other side, all of a sudden Charlie left 
practice last year at the last season and he weighed 240 
pounds, but he comes back at 275 and has more muscle. It does 
not take a genius to figure this out. So what do you do?
    So I guess the point I am trying to make--and there is a 
question in this--is that I think we put incredible pressure on 
professional athletes and college athletes, men and women, who 
do not see themselves as Olympians, who do not see themselves 
as all-Americans, but see themselves as wanting to have their 
college career follow their high school career where they were 
the star on the football team or the star on the basketball 
team or the whatever, with a lot more competition just to be 
able to play.
    Absent a very broad and standardized testing program, I do 
not know how this works even if we change the law. I do not 
know how, unless we shame all the professional sports into a 
uniform standard, Mr. Madden, like the Olympics, unless we have 
a standard that is across all professional athletes and all 
college athletes, I do not know how what we are doing here will 
have the kind of impact the Senator and I desire and you 
desire, which is to save lives, to halt these incredible 
physical distortions that have physical consequences. And as a 
60-year-old man who still thinks in terms of himself being an 
athlete--which is ridiculous, I know, but it is a mind-set that 
is hard to get rid of, isn't it, Bill? You know it is. I find 
it offensive that people with natural athletic ability in this 
meritocracy of sports, supposedly, who have real capacity are 
put at such an incredible disadvantage unless they are willing 
to cheat, unless they are willing to do something other than 
what God gave them in terms of their heart, their willpower, 
and their physique, to really succeed.
    And so it really has--I mean, the one thing about America 
has been--I mean, this sounds corny, but this is about American 
ideals. This is about American standards. What do we do? People 
see the movie ``The Hoosiers.'' They see the movies--I mean, 
why do we do this? We do this because we teach in this country, 
and we believe in this country, that heart makes a difference, 
and that hard work makes a difference. The one place that is 
the ultimate leveling experience is the athletic field. Was it 
Churchill who said that England's success--and I am 
paraphrasing--was won on the playing fields of Eton?
    So what do we do? How do you get--and here are my two 
questions, first to Mr. Madden, and then to you, Mr. Martin, 
and, Joe, if you want to jump in, just do it. But it is in 
their sort of bailiwick. That is, are the standards for testing 
any different in other major countries in the world? Are we the 
odd man out the way we do it in terms of our professional 
sports or our Olympic athletes or our premier college athletes? 
Do other countries, Terry, have different standards, not 
relative to the Olympics but relative to competition in their 
own countries? Is there any country to emulate in terms of how 
they did this? Mr. Martin, what do you think the reaction would 
be among your colleagues, the athletic directors across America 
in Division I and II and III in college sports, if, in fact, 
there was a uniform testing program like exists at the 
Olympics, that every athlete at every division in every sport 
had to be tested before the season began, in mid-season, I 
mean, if there was a standard?
    I know we have civil liberties questions, and I know we 
have privacy questions, but what do you think the response 
would be if there was promulgated--and I am not suggesting we 
are going to legislate this--if there was promulgated such a 
standard that was collegiate-wide in terms of testing.
    They are my two questions. Terry, if you would begin?
    Mr. Madden. Senator, first let me address the other 
countries issue. Last March, we have had over 130 countries 
sign on to the World Anti-Doping Code, so testing should become 
pretty equal across the world in Olympic sport. Now, the 
problem is the view of the rest of the world toward our 
professional sports.
    Senator Biden. U.S. professional sports.
    Mr. Madden. U.S. professional sports. There are problems in 
cycling. There are problems in soccer, and in other 
professional sports overseas, but they appear to be addressing 
them by signing on to the World Anti-Doping Code.
    Senator Biden. So the World Soccer Federation or 
organization is signing on to the U.S. Olympic Anti-Doping Code 
standard?
    Mr. Madden. Well, they will be signing on to the World 
Anti-Doping Code, of which we are part.
    Senator Biden. We are part of. Yes, I am sorry.
    Mr. Madden. So they are signing on, so testing around the 
world should be pretty level within the next 12 months.
    Now, the viewpoint from the international community of the 
U.S. is reflected in our professional sports because they 
follow our professional sports. What we have is the NFL with a 
pretty solid testing program. In fact, they just opened up a 
second laboratory with us at the University of Utah. Baseball, 
the NBA, and the NHL need to raise their programs. The NBA and 
NHL are basic--NBA is basically a street drugs program and does 
not do much with performance-enhancing drugs. Major League 
Baseball has none of the tenets of a solid testing program. 
They do not test year-round. They do not test for a full list. 
They do not test unannounced. And their sanctions are extremely 
weak.
    So the international viewpoint of Olympic sport 
unfortunately comes from the view of our professional sports. 
If we can raise the levels of our professional sports up to 
what the Olympic standards are for Olympic athletes, people 
would begin to then believe that the United States is a clean 
country. Right now, the perception out there is that we are not 
a clean country. I mean, it is cut-and-dried that we have 
problems.
    Senator Biden. I was going to ask you that because that is 
my perception as I travel around the world. And you know what I 
find absolutely amazing? I find this absolutely amazing. The 
conjunction of our attitude as exposed by Abu Ghraib toward the 
notion of human rights, the perception of us today, rightly or 
wrongly, about the meritocracy of sport, which is non-existent 
around the rest of the world as they look at us, it is to me 
absolutely beyond my ability to understand why we do not 
understand that the single greatest value that we exported to 
the world for the last 200 years, this notion of we are a 
meritocracy, this is the one unique place in the world, how 
much damage is being done to that by things that have nothing 
to do with foreign policy, like what you are talking about. It 
is astounding to me.
    Mr. Madden. I guess the good news is, out of the BALCO 
investigation in Northern California, that international 
perception has changed for the Olympic athletes, at least. We 
are going after them. We are going after the drug cheats, and 
that is what they are. It is cut-and-dried. They are cheating 
on their fellow competitors. They are cheating the American 
public. And when they go overseas, they are cheating 
international athletes.
    Senator Biden. The reason I mention this, remember how we 
felt as a Nation when the Berlin Wall was still up about East 
German athletes. And remember, it was not about the athletes. 
It was viewed as a window into the ethics of communism in East 
Germany. It was viewed as a logical extension of how they deal 
with everything regarding human nature. And it was used by us 
as an example of why this was a corrupt, defunct system--not 
just their athletic system, their whole system.
    Now, why baseball players in America, why professional 
athletes, why owners--well, the owners, that is not fair 
because the owners are pushing hard--why they do not understand 
how, to a lesser degree but nonetheless similarly, that same 
kind of reasoning is flipped on us when we talk about this 
issue. It is understandable to me and that is why I was so 
happy when the President mentioned this legislation in his 
State of the Union address.
    But, anyway, I do not mean to go off, but I really think 
this is so much bigger than sport. I know you may think I am 
exaggerating this, but I think this is so much bigger than just 
whether or not an 18-year-old Joe Biden at six-one, 156 pounds 
is at a disadvantage. It is so much bigger than that. It goes 
to the essence of who we are.
    Mr. Madden. We are in the business. We do not think you are 
blowing it up bigger than it is.
    Senator Biden. Bill--and then I will cease, Mr. Chairman--
would you respond to the issue about where your colleagues are 
these days on how to deal with it?
    Mr. Martin. First of all, Senator, I certainly appreciate 
your remarks, and you are right on target, particularly as it 
deals with a national standard that is uniform, not only across 
NCAA sports from Division I to the Division III, but we have to 
take a hard look at the consistency and include all of our 
professional sports, too. There is no question about that. Your 
mention of the Kaiser Foundation research, three-fourths of the 
high school kids and half of those, even though they know their 
heroes are taking drugs, no problem, I mean, that is a cultural 
issue and there is no silver bullet. But we have got to change 
the culture, and that is tough love. It is what Terry is doing 
at USADA in coming down hard on track and field. We read about 
it every single day. But what we are doing, we are in the 
process of changing the culture, and it is not easy. Terry has 
had some personal abuse about it--he can tell you about it--as 
he goes after that sport and the cheats in it. But we are more 
interested, wearing my Olympic hat, in protecting the rights of 
the innocent guys and gals who play safely and by fair rules 
and do not dope up than we are the few that do not play 
according to the rules.
    I can tell you that across Division I and to Division III, 
there would be absolute unanimous approval of one consistent 
standard. The only question would be the resources to do it. We 
are all walking in lockstep on that issue.
    I do want to say that in my time at Michigan and beyond, 
there has been only one incident where we have tested positive 
for steroid use. The big problem with collegiate athletics, 
frankly, and with college life in general is alcohol. It is not 
steroids. It is not supplements. It is alcohol. And that is 
really what our society has to deal with with kids at that age. 
We have had one incident of steroid use where there was a 
positive test in 13 years.
    Senator Biden. Thank you.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you.
    I have just a couple of short questions for two of you, and 
then we will go on to the next panel.
    Mr. Madden, is USADA planning to decide the pending cases 
of several athletes suspected of using banned substances prior 
to the Olympics?
    Mr. Madden. Senator, for any athlete who makes the team 
going to Athens, their case will be decided before Athens.
    Chairman Grassley. Okay. And, Mr. Martin, you have just 
touched on this a little bit, but let me be a little more 
specific. You talked about the need for common standards 
between Olympic, NCAA, and professional sports. Would you 
extend this need for a common standard to include the penalties 
associated with positive tests? For example, the penalties you 
mentioned for college athletes seem weak compared to the 
sanctions imposed by USADA.
    Mr. Martin. I think that is correct. I would study that 
further. Today I would not look at it. I think the real issue 
is our professional sports because those are the heroes, those 
are who the fifth graders emulate and look up to. We have got 
to work on the professional leagues and bring them down. We 
have got to bring Don Fehr, head of Major League Baseball 
Players Association, into the fold. He is a very good, solid 
guy, I know, but there needs to be a culture change there. And, 
Senator Biden, if I was that 156-pound flanker and you have got 
an outside linebacker at 230 pounds, I would run the other way.
    Senator Biden. I occasionally did.
    [Laughter.]
    Senator Biden. It is called cutting across the grain. But, 
man, when you miss, it hurts.
    Chairman Grassley. And in thanking you, I want to encourage 
you to be what I believe; that in America one person can make a 
great deal of difference. To those of you that are here at the 
table trying to make a difference, I want to encourage you, 
with your stature, to continue to turn this thing around.
    Thank you very much.
    Chairman Grassley. Would the second panel come as I 
announce you? Our first witness, who we will refer to as Mr. 
John Doe, is a Division I-A football player who will be 
testifying anonymously. He will tell us about his experience 
with the pressure to use steroids both on the high school and 
college level. He will tell us how easy it is to get steroids 
and other performance-enhancing drugs. He will also tell us 
about many of his teammates who have abused steroids.
    The second witness, Curtis Wenzlaff, will be speaking about 
his experience both distributing and using steroids. Mr. 
Wenzlaff sold steroids to professional athletes, including 
professional baseball players, like Jose Conseco. He also took 
steroids while in high school and college, and he will speak 
about that.
    Then we have Donald Hooten. Tragically, Mr. Hooten's son, 
Taylor, committed suicide as a result of the abuse of steroids. 
He will tell us about the alarming percentage of American 
youths who are taking these.
    And then we will hear from Dr. Donald Catlin, currently 
professor at the UCLA School of Medicine. Dr. Catlin is 
internationally recognized for his knowledge on the abuse of 
steroids and other forms of doping in fields such as drug 
testing and athletics. Dr. Catlin has also served on 
committees, both national and international, that deal with 
drugs and sports.
    I want to thank all of you for coming today, and let me ask 
my staff, I assume we should wait until we get John Doe out 
here. Is that right? Is he going to come right away, then? Yes. 
So before you start, the way we are going to do this is we are 
going to have Mr. John Doe testify first, and then Mr. 
Wenzlaff, then Mr. Hooten, and then Mr. Catlin. So it is kind 
of the way you are seated here. So we will just wait for a 
minute for Mr. John Doe.
    [Pause.]
    Chairman Grassley. We are going to call on you, Mr. Doe, to 
be the first witness. Let me ask my staff just so I know I do 
not harm Mr. Doe in any way. We are going to have all four 
witnesses testify first, and then ask questions of each one. 
So, Mr. Doe, would you proceed, please?

        STATEMENT OF JOHN DOE [HIDDEN WITNESS], COLLEGE 
             ATHLETE, NCAA DIVISION I FOOTBALL TEAM

    Mr. Doe.  First I would like to thank the Caucus on 
International Narcotics Control for giving me the opportunity 
to address you regarding an issue I believe has the potential 
to dramatically change many people's opinion on both amateur 
and professional sports.
    I have spent the last 4 years as a walk-on at the varsity 
level of a Division I football program. Anyone watching college 
football has inevitably watched the school I played for at 
least once during the fall season when they are broadcast on 
national television two to three games a year. I wish to not 
give any more information on the school as to protect both my 
identity and the school's.
    I would, however, like everyone listening to keep in mind 
that my stories reflect on other big time Division I programs. 
I can tell you this because college football shares the common 
mentality around the Nation, and that is you are either big or 
fast, maybe even both. A certain percentage of players will 
potentially sacrifice their college eligibility in order to 
gain an edge in their competition through the use of steroids.
    Growing up, I participated in a number of sports. In high 
school, I concentrated on football and track. During high 
school, I became aware of various substances that were touted 
to enhance muscle growth, and indirectly, athletic performance. 
These products ran the board from high protein dietary 
supplements to illegal anabolic steroids. They all were readily 
available.
    The transition from a high school football team to a 
Division I school was obviously tremendous. The talent level, 
experience level and physical presence of the players seemed to 
have increased by five-fold at least. When first arriving at a 
program like this, the temptation to use steroids is great 
because of the surrounding players who quite obviously have 
taken the chance and have used drugs to gain physical strength. 
Even more alluring was the prospect of earning a spot on the 
offense, defense or special teams, which would become much 
easier to achieve by using steroids and gaining 20 to 30 pounds 
of muscle.
    Another part of the allure of using steroids is that they 
will give the user immediate results. During my college 
athletic career I was able to gain weight, about 20 pounds 
without the use of steroids and improved my strength and time 
in the 40-yard dash. Even after achieving strength and speed 
gains, however, the coaches encouraged me to make more strength 
and weight gains as rapidly as I could. In retrospect, the use 
of steroids would have most likely given me additional strength 
and the ability to play more. This is enough to create the 
strong temptation to take steroids in that situation.
    As far as steroid use on my team, with careful observation, 
it became evident that many players on my football team were 
using steroids at some point during their career. I have 
evidence from a current friend and a roommate that I lived with 
at the time. He lived with another player during the time who 
supplied 7 to 8 players on the team with these steroids. Many 
of these players played significant time in games and most were 
starters on either offense or defense. In addition, there could 
be other players using steroids that I was not aware of during 
my career, and in hindsight, it becomes very probable, that 
several other players were, in fact, using steroids.
    You may be asking yourself how these players get around the 
NCAA random drug testing policy. This policy is rather weak, 
however, and fairly predictable, with the drug test falling in 
roughly the same window of time each year. The NCAA claims to 
be protecting the health and safety of college athletes, but in 
my opinion, they have very little effect on the illegal use of 
drugs in college athletics.
    A positive is that I was able to attend a college program 
that strongly discourages the use of steroids. Upon speaking 
with a collegiate baseball player that attended a different 
Division I school, I learned that use of steroids can be far 
worse than I imagined. I learned that between 80 and 90 percent 
of his starting lineup use steroids. Players have made 
tremendous weight gains, as much as 50 pounds, that cannot be 
explained by too many other methods.
    Part of the reason I was able to stay away from the use of 
steroids is because of my prior knowledge of the damaging 
effects that all anabolic steroids have on the body. Also being 
part of a network of players that refused to take any illegal 
substances, even if it would be the difference maker in their 
college football career. It is not easy, however, to ignore the 
option of using drugs to gain an edge, especially when a coach 
encourages a player to gain weight in order to play or do 
whatever it takes to get bigger and stronger.
    I hope my testimony today will be helpful to you in your 
efforts to eliminate the use of steroids and other performance-
enhancing drugs in sports. I'd like to try and respond to any 
question you might have for me at this time.
    [The prepared statement of Mr. Doe follows:]
        Testimony of John Doe [hidden witness] College Athlete, 
                     NCAA Division I Football Team
    I would like to thank the Caucus On International Narcotics Control 
for giving me the opportunity to address you regarding an issue I 
believe has the potential to destroy the integrity of many sports.
    I have spent the past 4 years as a ``walk-on'' at the varsity level 
of a Division I program. Anyone watching college football has 
inevitably watched the school I played at least once during the fall 
season when they are broadcast on national television 2-3 games a year. 
I wish to not give any more information on the school as to protect 
both my identity and the school's integrity.
    My participation included practice during the regular season, year 
round conditioning, spring practice, and two-a-day practices in August 
prior to the season. I was on the team for four years, and it was a 
rewarding experience.
    I would, however, like everyone listening to keep in mind that my 
stories reflect on other big time division I programs. I can tell you 
this because college football shares a common mentality around the 
nation, and that is you're either big or fast, maybe even both. A 
certain percentage of players will potentially sacrifice their college 
eligibility in order to gain an edge on their competition.
    Growing up, I participated in a number of sports. In high school, I 
concentrated on football and track. During high school, I became aware 
of various substances that were touted to enhance muscle growth and, 
indirectly, athletic performance. These products ran the gamut from 
high protein dietary supplements to illegal anabolic steroids and were 
readily available.
    The transition from a high school football team to a Division I 
school was obviously tremendous. The talent level, experience level, 
and physical presence of the players seems to increased exponentially. 
When first arriving at a program like this, the temptation to use 
steroids is great because of the surrounding players who quite 
obviously have used drugs to gain physical strength. Even more alluring 
is the prospect of earning a spot on the offense, defense or special 
teams which would become much easier to achieve by using steroids and 
gaining 20-30 lbs. of muscle.
    When I moved up to a Division I program, the level of ability and 
the pressure to excel increased exponentially. Even though the use of 
steroids was discouraged in my program, there were individuals on the 
team who used them and appeared to gain some benefit from them.
    Part of the allure of steroids is that they will give you a 
competitive edge. During my college athletic career, I was able to gain 
about thirty pounds, substantially improve my strength, and cut my time 
in the forty-yard run to 4.5 seconds. I did this without the use of 
steroids. After I ran the 4.5 forty, my strength coach told me that I 
now needed to get bigger and stronger. How much bigger, stronger and 
faster would I have been had I taken steroids? The temptation was 
great. The use of steroids probably would have resulted in my moving up 
the depth chart and thus getting more playing time and possibly 
receiving an athletic scholarship.
    Without careful observation it became evident that many players on 
my football team were using steroids at some time during their career. 
This is because my current friend and roommate lived with a player that 
supplied 7-8 other players on the team with these steroids. Many of 
these players played significant time in games and most were starters 
on either offense or defense. There could easily be other players using 
steroids that I was not aware of during my career and in hindsight it 
becomes very probable that several other people on the team used 
steroids without many people knowing. You may be asking yourself how 
these players get around the NCAA random drug testing policy. This 
policy is rather weak however, and fairly predictable with the drug 
tests falling in roughly the same window of time each year. The NCAA 
claims to be protecting the health and safety of college athletes, but 
in my opinion has very little pull on the illegal use of drugs in 
college athletics.
    Despite my love for the game of football, or maybe because of it, I 
was unwilling to make the Faustian bargain of using steroids or other 
illegal performance-enhancing substances in order to play. No athlete 
should have to trade his integrity in order to gain a competitive edge. 
The victims of performance-enhancing substances are not just the users, 
who face various long-term health consequences, but those who choose 
not to use them and lose the equal opportunity to compete. I hope my 
testimony today will be helpful to you in your efforts to eliminate the 
use of steroids and other performance-enhancing drugs in sports.
    Part of the reason I was able to stay away from the use of steroids 
is because of my prior knowledge to the damaging effects that all 
anabolic steroids have on the body. Another positive is being fortunate 
enough to be part of a program that strongly discourages the use of 
steroids, and a network of players that refuse to take any illegal 
substances even if it would be the difference maker in their college 
football career. It was not easy however to ignore the option of using 
drugs to gain an edge, especially when a coach encourages a player to 
gain weight in order to play or ``do whatever it takes to get stronger 
and bigger.''

    Chairman Grassley. We will wait for questions until we hear 
from the other three, and then we will ask you questions. So 
please just sit there.
    Mr. Doe.  Okay.
    Chairman Grassley. Thank you very much, Mr. Doe.
    Now Mr. Wenzlaff, Curtis Wenzlaff.

           STATEMENT OF CURTIS A. WENZLAFF, CONVICT, 
           FORMER USER AND DEALER OF ILLEGAL STEROIDS

    Mr. Wenzlaff.  Good day, Mr. Grassley, members of the Drug 
Caucus, ladies and gentlemen. I appreciate the opportunity to 
share with you my personal experience with anabolic steroids, 
as well as to offer you my opinion on several related issues.
    I began using anabolic steroids initially for only one 
purpose. That was to help me in my quest to earn a college 
athletic scholarship. I began taking steroids in the summer of 
1981 just prior to my senior year of high school. Steroids were 
also an option for me because of guilt by association, that is, 
I trained at a gym in Southern California that was frequented 
by many notable bodybuilders. My close association with world-
class bodybuilders and other athletes provided a constant 
source of steroid knowledge. I quickly learned steroid names, 
sources, uses, doses, techniques, arrays and combination 
training cycles.
    At that time, my increasing knowledge of which steroids to 
use for certain purposes, and how to administer them, I 
believe, allowed me a greater sophistication of steroid 
knowledge than an average steroid user. For example, as a 
teenager I knew specific drugs, when taken in much smaller 
amounts than their dosages were packaged, can be as much as ten 
times the strength of testosterone. Clearly, this is not common 
knowledge even among serious steroid users. Please understand, 
it is now 23 years later, and this trade secret remains 
virtually unknown by most steroid users. Therefore, when I say 
I had a substantial working knowledge of steroids as a 
teenager, the point is not overstated.
    Although I did take steroids, I never abused their use. 
During my training, I was carefully monitored by experienced 
users and trainers. However, I personally knew others who took 
steroids based on the belief that more is better, and more 
often is best. Some of those individuals experienced injury and 
a variety of illnesses, and a few who continued taking steroids 
for years with little if any time off, have died.
    Frankly, in my opinion, most steroid users, particularly 
those who are experimenting, are virtually clueless regarding 
steroid use. I would project that 9 out of every 10 users are 
taking whatever he or she is able to get their hands on, even 
though the individual may have had the intention of obtaining a 
completely different steroid. And if the individual is able to 
acquire a steroid, he or she will likely take the steroid 
without assurance the steroid can benefit the user in the way 
the user wants to experience gains. Furthermore, most steroid 
users, particularly beginners, disregard monitoring the effects 
on the body during the administration weeks of the cycle, if 
the user even understands what a cycle actually is.
    Again, because of my extensive knowledge of steroid use and 
resources, I believe I was the exception. For example, I 
underwent weekly blood tests, daily blood pressure readings, 
morning, pre-workout, post-workout and middle of the night. 
Often I would be given a day off of training if my blood 
pressure was too high first thing in the morning. Weekly urine 
tests and analyses were part of the regimen. I seriously doubt 
if there are more than a handful of people even today under the 
same kind of medical scrutiny I experienced. Hence, because of 
the stringent attention to testing and monitoring, which 
actually guided both my training and use of steroids, I 
reiterate that I did not abuse steroids by indiscriminate 
consumption. I was closely associated with individuals who 
possessed a wealth of knowledge and experience in the 
administration of anabolic steroids. Clearly, their careful 
guidance during this time I used steroids prevented misuse. 
Unfortunately, not all steroid users have the resources I did. 
It is those individuals that are in danger of ruining their 
health and potentially their lives.
    The Anabolic Steroid Control Act of 1990 was extremely 
effective. In the mid-1980s it was nothing to see a kid in high 
school with 20-inch arms; now it is rare.
    And now, to throw a different light on the subject, there 
is also the growing issue of fake steroids. I will be so bold 
as to say that 95 percent of the anabolic steroids today are 
fake. Keep in mind there are virtually no anabolic steroids 
being produced domestically. Therefore, those who supply 
steroids to eager-to-try users are forced to locate 
international sources. With that as one of the dwindling number 
of options, many diluted or totally ineffective steroids find 
their way into America. Hence the introduction of fake 
steroids.
    The DEA is aware of the enormous amount of fake steroids 
available. Why else is there a special task force specifically 
to address this problem? The bottom line is that while 95 
percent of the anabolic steroids in circulation, in my opinion, 
are fake, initially neither the provider nor the end user are 
aware the product is virtually useless.
    What the panel must understand is there are multiple layers 
of steroid users. Some layers are sophisticated but most are 
not. Some users have extensive knowledge or their trainer has 
extensive knowledge. However, the vast majority, in my opinion, 
simply do not. While some of the users have direct access to 
both quality products and quality distributors, there are 
others who have indirect access, that is, friends of friends of 
friends who think they have a reliable and authentic 
distributor. To further explain, at the top of the pyramid are 
those who are established professional athletes with lots of 
money and influence. Individuals like that can afford top of 
the line steroids. Every distributor wants quality customers. 
If they get them, they will do all they can to keep them. 
Hence, the distributor will provide A-1 products.
    Among professional athletes the word spreads quietly, and 
the distributor has the good fortune of having reliable 
customers who are willing to pay top dollar. Those users get 
the good stuff and the right stuff.
    Then at the opposite end of the spectrum are the high 
school and college kids who often do not have access to real 
distributors, but who have access to a friend of the friend 
scenario previously described. These are the kids who often 
have limited funds, have little if any influence, and they're 
pretty much doing nothing but experimenting.
    These, therefore, are the kids who are prime candidates for 
less than top quality steroids, often diluted or inappropriate 
and often simply fake. These are the placebo steroids. You may 
ask, if a placebo, why do they work? They do not. But many of 
the users think they do, and often that is sufficient 
motivation for a young athlete to work extra hard in the gym, 
eat extra quality food and train overall harder than they ever 
did before. When that happens, what do you think the end result 
will be? The kid will grow. The kid will get stronger. The kid 
will likely be in the best shape of his life. Also, as we all 
know, the teen years are the time when the male body produces 
its greatest amount of testosterone without any need of outside 
help.
    Furthermore, there are outside influences on young athletes 
that may cause some to seek steroids. One such influence is the 
media, which place an emphasis on the biggest, the strongest, 
the fastest. Secondly, many high school and college coaches 
expect their athletes to spend more time in the weight room, 
and perhaps most alarming is the parent who either consciously 
or unconsciously pushes their son or daughter into steroid use 
with their conscious or unconscious expectation of the athletic 
prowess, college scholarship and professional athlete 
expectations. Of course, this is not to say that every athlete 
who experiments with steroids is doing it with the approval of 
parents. Most high school athletes who experiment are doing so 
without parent approval or knowledge.
    Whatever the motivation, high school athletes appear to be 
working harder at a younger age. Therefore, the result is high 
school athletes are simply getting bigger without the influence 
of steroids. Nevertheless, there are those who will capitalize 
on the kids and provide them with steroids whether they are 
real or fake. All the distributor cares about is the money is 
real.
    Let us be realistic. As long as there are incomprehensible 
amounts of money paid to professional athletes, offered by 
economically insane professional sports team owners or sports 
product companies, there will continue to be a problem with 
anabolic steroid use. Case in point: how relevant does a 
potential health risk later in life stack up against a $20 
million signing bonus and a shoe contract worth five times that 
amount to an athletically gifted teenager or a young adult in 
his or her prime of life? Are kids, perhaps driven by their 
parents and friends, going to think about the distant future, 
or are they going to live for the moment? The moment wins 
practically every time.
    The way to tighten a grip on steroid usage is to right now 
confront local pharmacies. As well, believe it or not, 
veterinarians are able to provide both human and animal 
steroids which can be used by humans. They, too, should also be 
heavily scrutinized. Anyone that has access to a pharmacist or 
a vet on a personal level can potentially have access to a full 
spectrum of anabolic steroids.
    In closing, the panel must understand the comments I made 
today reflect what I knew about steroid use in the 1980s and 
early 1990s. What I shared with you today may or may not 
accurately describe the current situation. Thankfully, I closed 
that chapter of my life well over 10 years ago, and therefore, 
can report only on what I once knew. However, I believe the 
conditions referenced still exist, but it is more important to 
me that you understand I have no present-day knowledge. I have 
disassociated myself from previous friends and contacts. I 
appear here today because I was asked to share what I knew, not 
what I know, and that is a lifestyle I no longer follow.
    Mr. Chairman, Caucus members, ladies and gentlemen, thank 
you for the opportunity to share my experiences and my 
thoughts. I wish you much success in your daunting task.
    [The prepared statement of Mr. Wenzlaff follows:]
               Testimony of Curtis A. Wenzlaff, Convict, 
                Former User and Dealer of Illegal Drugs
    Good day Mr. Grassley, members of the Drug Caucus, ladies and 
gentlemen:
    I appreciate the opportunity to share with you my personal 
experience with anabolic steroids, as well as offer you my opinion on 
several related issues.
    I began using anabolic steroids, initially, for only one purpose. 
That purpose was to help me in my quest to earn a college athletic 
scholarship. I began taking steroids in the summer of 1981, just prior 
to my senior year of high school. Steroids were always an option for me 
because of ``guilt by association'', i.e., I trained at a gym in 
Southern California that was frequented by many notable bodybuilders. 
My close association with world-class bodybuilders and other athletes, 
provided a constant source of steroid knowledge. I quickly learned 
steroid names, sources, uses, doses, techniques, arrays, and 
combination training cycles.
    At that time my increasing knowledge of which steroids to use for 
certain purposes, and how to administer them, I believe, allowed me a 
greater sophistication of steroid knowledge than an ``average'' steroid 
user. For example, as a teenager I knew specific drugs, when taken in 
much smaller amounts than their dosages are packaged, can be as much as 
ten times the strength of testosterone. Clearly, this is not common 
knowledge even among serious steroid users. Please understand, it is 
now twenty-three years later, and this ``trade-secret'' remains 
virtually unknown by most steroid users. Therefore, when I say I had a 
substantial working knowledge of steroids as a teenager, the point is 
not overstated.
    Although I did take steroids, I never ``abused'' their use. During 
my training, I was carefully monitored by experienced users and 
trainers. However, I personally knew others who took steroids based on 
the belief that ``more is better, and more often is best''. Some of 
those individuals experienced injury and a variety of illnesses, and a 
few who continued taking steroids for years without little if any time 
off, have died.
    Frankly, in my opinion, most steroid users, particularly those who 
are experimenting, are virtually clueless regarding steroid use. I 
would project that nine out of every ten users are taking whatever he 
or she is able to get their hands on, even though the individual may 
have had the intention of obtaining a completely other steroid. And, if 
the individual is able to acquire a steroid, he or she will likely take 
the steroid without any assurance the steroid can benefit the user in 
the way the user wants to experience gains. Furthermore, most steroid 
users, particularly beginners, disregard monitoring the effects on the 
body during the administration weeks of the cycle . . . if the user 
even understands what a cycle actually is.
    Again, because of my extensive knowledge of steroid use and 
resources, I believe I was the exception. For example, I underwent 
weekly blood tests and daily blood pressure readings (morning, pre-work 
out, post-work out, and middle of the night). Often, I would be given a 
day off from training if my blood pressure was too high first thing in 
the morning. Weekly urine tests and analysis were part of the regimen. 
I seriously doubt if there are more than a handful of people, even 
today, under the same kind of medical scrutiny, I experienced. Hence, 
because of the stringent attention to testing and monitoring, which 
actually guided both my training and use of steroids, I reiterate I did 
not ``abuse'' steroids by indiscriminate consumption. I was closely 
associated with individuals who possessed a wealth of knowledge and 
experience in the administration of anabolic steroids. Clearly, their 
careful guidance during the time I used steroids prevented misuse. 
Unfortunately, not all steroid users have the resources I did. It is 
those individuals that are in danger of ruining their health, and 
potentially their life.
    The Anabolic Steroid Control Act of 1990 was extremely effective. 
In the mid-1980s, it was nothing to see a kid in high school with 
twenty inch arms; now, it is rare. And now, to throw a different light 
on the subject, there is also the growing issue of fake steroids. I 
will be so bold as to say that 95% of the Anabolic Steroids today are 
fake! Keep in mind there are virtually no anabolic steroids being 
produced domestically. Therefore, those who supply steroids to eager-
to-try users, are forced to locate international sources. With that as 
one of a dwindling number of options, many diluted or totally 
ineffective steroids find their way into America. Hence, the 
introduction of fake steroids.
    The DEA is aware of the enormous amount of fake steroids available. 
Why else is there a special task force specifically to address this 
problem? The bottom line is that while 95% of the anabolic steroids in 
circulation are fake, initially neither the provider nor the end user 
are aware the product is virtually useless.
    Let's be realistic . . . as long as there are incomprehensible 
amounts of money paid to professional athletes, offered by economically 
insane professional sports team owners, or sports product companies, 
there will continue to be a problem with anabolic steroid use. Case in 
point . . . how relevant does a ``potential'' health risk later in life 
(steroid use) stack up against a $10 million signing bonus and a shoe 
contract worth five times that amount, to an athletically-gifted 
teenager, or a young adult in his or her prime of life? Are kids, 
perhaps driven by their parents and friends, going to think about the 
distant future, or are they going to live for the moment? The moment 
wins practically every time.
    The way to tighten the grip of steroid usage is to right now 
confront local pharmacies. As well, believe it or not, veterinarians 
are able to provide both human and animal steroids, which can be used 
by humans. They too, should also be heavily scrutinized. Anyone that 
has access to a pharmacist or a vet, on a personal level, can 
potentially have access to a full spectrum of anabolic steroids.
    Mr. Chairman, Caucus Members, ladies and gentlemen, thank you for 
the opportunity to share my experiences and my thoughts. I wish you 
much success in your daunting task.

    Chairman Grassley. Thank you, Mr. Wenzlaff.
    Now Mr. Hooten.

               STATEMENT OF DON HOOTEN, FATHER; 
           SON COMMITTED SUICIDE AFTER USING STEROIDS

    Mr. Hooten. Senator Grassley and Senator Biden, on July 
15th of 2003, just one year ago this week, my youngest son, 
Taylor, took his own life. Taylor had just turned 17 and in two 
weeks would have been starting his senior year at Plano West 
Senior High School. This past spring he would have been a 
starting pitcher on his varsity baseball team, his dream. He 
made an excellent score on his SAT test, and Taylor and I were 
getting ready to start making college visits. He was in love, 
was convinced he had met the girl of his dreams and was already 
talking about marriage, as crazy as that sounds.
    Taylor was well-liked by all who knew him. Adults tell us 
he was one of the nicest and most well-mannered young men they 
knew. He was always smiling. His friends tell us he was one of 
the nicest kids on campus, a ladies man that was a real 
charmer. Over 3,000 people attended his funeral.
    Nearly everyone that has visited us since this tragic event 
has told us that if they had been asked to predict which of the 
kids at Plano Senior High School would have been prone to 
commit such a tragic act, each and every one of them said that 
Taylor would have been at the very bottom of their list.
    So why would such a nice young man, with his whole life in 
front of him, take such an irrational step? I am convinced that 
anabolic steroids played a significant role in causing the 
severe depression that resulted in his suicide. Yes, steroids, 
a drug that I have recently learned can be just as lethal as 
any of the other classical drugs that we are so familiar with; 
heroin, cocaine and others. And I have learned that what 
happened to Taylor, the events leading up to and including his 
suicide, are right out of the textbook on steroids.
    Taylor was a pitcher. During the fall of his junior year, 
his JV coach told this 6 foot 3, 175-pound young man, that he 
needed to get bigger in order to improve his chances of making 
the varsity baseball team.
    Senator Biden. How old was he then, Mr. Hooten?
    Mr. Hooten.  He was 16-years-old.
    Senator Biden. He was 6-3 what?
    Mr. Hooten.  175, maybe 180 pounds.
    I have been around baseball all my life. I have a cousin 
that plays major league ball; his older brother played Division 
I ball. I still do not understand why this coach told a 6 foot 
3, 175-pound young man he needed to get bigger to throw a 
baseball. But he did. And whether his coach was correct or not, 
he did not follow up those instructions with advice on what 
exercise program to get on or what diet that he should take.
    Well, Taylor took his coach's advice seriously, and 
somewhere along the line he made the decision to take anabolic 
steroids as a short-cut to help him reach his objective. Over 
the next four months Taylor did get bigger. He put on about 30 
pounds and developed a number of the classical symptoms of 
steroid use. Moreover, his whole personality changed. He went 
through serious mood swings, ranging from periods of extreme 
anger to depression.
    I did not know much about steroids until Taylor's death, 
but I have done a whole lot of reading in the meantime, and 
have had the opportunity to speak and work with a number of the 
world's experts on this subject, including guys like Dr. Gary 
Wadler of NYU, Dr. Harrison Pope from Harvard, and many others. 
In addition, several large news organizations, including the 
New York Times, CBS ``60 Minutes II,'' CBS ``48 Hours,'' Fox 
News Network and others, have turned over every stone they 
could in an effort to understand what happened here. And 
through their work, we have had multiple experts confirm that 
anabolic steroids are very capable of causing the kind of 
depression that Taylor experienced, severe enough to result in 
suicide.
    The reason that I am here today is to share with you just a 
little of what I have learned about steroids so that you and 
others can benefit from our experience. I am absolutely 
committed to seeing that Taylor's death will not go in vain.
    As we have learned, there are numerous types of anabolic 
steroids, and each and every one of them require a 
prescription. How do kids take steroids? They take them orally 
or they can be rubbed on their skin. Taylor, like many of the 
other kids, was using needles to inject steroids into his body. 
As dads, I want you just to imagine for the moment how 
horrifying it was to go through his bedroom after the funeral 
and see his stash of vials, needles and syringes.
    Who uses steroids? Many studies have been done, and most of 
the experts that I have been speaking with put the overall 
usage rate at somewhere between 4 and 5 percent of the total 
U.S. high school population. Several studies have put the use 
of steroids in my part of the country, the south, at about 11 
percent of the total male population. These numbers really 
begin to take on more significance when we understand that this 
11 percent is concentrated in the athletic community, a subset 
of the overall student population. The kids tell me that 
between one-third and one-half of the players on some of our 
local Plano High School football teams are juicing. These are 
16- and 17-year-old kids.
    Where do kids obtain their steroids? Steroids are sold by 
drug pushers. They do not call themselves drug pushers, but 
they are at almost any local gym, yes, in almost any local gym 
in your home communities where the big guys work out. Most of 
the steroids in our part of the country come in from Mexico and 
are then brought across the border, or they, as we have seen, 
can be easily purchased over the Internet. Let us not kid 
ourselves, these kids use steroids because they work well. They 
help the boys bulk up and give them a feeling that they are 
better in a particular sport than they are. And once some of 
the teammates start using steroids, other members of the team 
feel the need to use the drug, as we have seen, and as Senator 
Biden pointed out, just to remain competitive.
    There are a whole list of longer-term physical side effects 
associated with steroid use that we could discuss. In short, 
there are virtually no organs in the body that are not 
negatively impacted by steroids. But there is another list of 
more immediate psychiatric dangers, and I want to go over them 
very briefly because of our experience with Taylor.
    Even though athletes think that they are feeling better, 
most experience wide mood swings ranging from periods of 
violent, even homicidal behavior, known as ``roid rages.'' In 
addition, users can suffer from paranoid jealousy, extreme 
irritability, delusions and impaired judgment, resulting from 
feelings of invincibility.
    In addition to the hypomanic symptoms that occur during 
steroid exposure, there can be equally dangerous depressive 
symptoms from steroid withdrawal. Even when the user stops 
taking steroids, severe bouts of depression can result. 
According to the DEA, the depression that follows steroid use 
is so severe that it can lead to suicide attempts, and that 
these effects can last for up to a year or more after the user 
stops taking the drugs.
    You will be interested to know that Taylor told us, his 
doctor, and his closest confidants that he had stopped taking 
steroids about 2 months before he hanged himself.
    Now, let me tell you just a little bit about what the 
steroid industry does to make it easy for their customers--our 
kids--to purchase their wares. We have already seen a huge 
exposure to that already this morning. I did a quick search for 
``steroids'' on the Yahoo search engine, and it yielded over 2 
million sites where information--accurate and inaccurate--can 
be found. When I put 3 words into the Google search engine, 
``buy steroids on-line,'' over 300,000 sites popped up.
    Senators, all our kids need are a credit card number or a 
money order to have hard-core prescription anabolic steroids 
shipped right to their doorstep. Take a look for yourself when 
you get back to your office this afternoon. I was shocked to 
see how easy it is to purchase this junk, and I am certain you 
will be too.
    Now, what can we do about it? I will divide my 
recommendations on this subject into two categories: What you, 
I believe, can do as Government officials and what we can do as 
citizens. As public officials, I encourage you to take steps to 
ensure that we have better testing and education in this area. 
I believe testing is crucial to controlling the abuse of 
steroids amongst the athletes. It is the only way to know for 
sure whether our kids are using these drugs, but our local 
Plano officials have come up with a multitude of excuses for 
not adopting such a policy in our local schools. First, they 
continue to bury their heads in the sand, repeating the worn-
out line that there is not a steroid problem in our community. 
They go on to comment that even if there were a steroid 
problem, it is society's problem to deal with, not theirs.
    Some of our local officials expressed concern about the 
possible legal ramifications of such an approach, even though 
the U.S. Supreme Court has already affirmed the legality of 
such testing. Some say testing costs too much--somewhere 
between $60 and $200 per test--to which I say, ``Costs too 
much?'' I, for one, would rather see whatever money is required 
to be spent to protect our children form this deadly drug. The 
good news is there are ways of managing and focusing the 
testing and therefore the costs. Let us put testing on the list 
of funding priorities that we have for our schools and stack it 
up against the need for the next new athletic facility or other 
programs. I think our kids' lives are worth it, and I hope you 
do too.
    I strongly believe that education is the best weapon that 
we have in this fight because prevention is the best approach 
to reducing the demand for anabolic steroids. Current users, 
coaches and parents need to know about the hazards of its use. 
Our students need to understand they are not bulletproof and 
that these drugs can seriously harm them. But warning a 16-
year-old young man about the dangers of having a heart attack 
or developing liver problems or other maladies when he turns 35 
or 40 will most probably fall on deaf ears. That is why I 
believe coaches are the most important first targets for this 
testing because they are the key to solving this problem. Why? 
Because they are the ones positioned to reward the results of 
the kids that use steroids. They make the decision who makes 
the team and who does not, who makes the starting line-up or 
sits the bench.
    We must take active steps to make our coaches more 
responsible and accountable for supervising the use of steroids 
by their teams. I feel strongly that we need coaches that are 
formally trained to recognize the symptoms of steroid abuse, 
trained to know what to do about it when they find it and held 
accountable for ensuring that their teams are steroid free.
    Furthermore, I feel our coaches need to be certified to 
have to pass a minimum threshold of training and testing before 
being turned loose to supervise our kids. Today's group of high 
school coaches, at least in my part of the country, receive no 
training whatsoever on the subject of steroids and are, in my 
experience, disavowing any responsibility for challenging their 
athletes on this problem. As a matter of policy, our coaches 
must talk openly and actively with their teams about this 
topic, and we must insist that they enforce a ZERO-TOLERANCE 
policy on the issue of steroid abuse. Get caught using 
steroids, and the student is either put into a formal 
rehabilitation program or kicked off the team.
    Yes, Senators, the coach may lose his number one pitcher, 
his star quarterback or runner for the season, but I am 
convinced that this drug abuse will not stop until our athletes 
are convinced that there are real consequences to this drug 
abuse. With the strong peer pressure to use steroids combined 
with the wonderful example that is being set by our 
professional athletes, I am certain that a slap on the wrist 
just is not enough to curb this rampant abuse.
    To help fill this education void, we have just formed a 
nonprofit organization, foundation, the Taylor Hooten 
Foundation for Fighting Steroid Abuse. As far as we know, we 
are the Nation's first private organization that is organizing 
to fight this battle. We have just opened a new website and 
have begun a fundraising campaign targeted at raising $5 
million this year for a national education effort. We would 
like to find ways to work with you to make our foundation part 
of your effort moving forward.
    There are other things you can do, such as strengthening 
the penalties for distribution and possession of this drug and 
finding ways to stop the flow of drugs across our borders, but 
we can talk about those ideas and others in the Q&A period.
    Creative legislation is needed now. Doing nothing will 
ensure that steroid use will continue to grow. The demand for 
steroids continues to grow and has not been deterred by recent 
events. Coaches continue to look the other way and, for 
whatever reason, parents continue to push their kids to get 
that scholarship. Knowingly or unknowingly, our kids continue 
to be pressured into using steroids.
    Let me close by telling you how much I appreciate you 
taking the time to listen to my message today and my sincere 
prayer is that some of the knowledge that I have shared with 
you in this message will help you better understand how you can 
help some boys and girls avoid the terrible fate that was 
Taylor's.
    Thank you.
    [The prepared statement of Mr. Hooten follows:]
                   Statement of Don Hooten, Father; 
               Son Committed Suicide After Using Steroids
    On July 15th of 2003, just 1 year ago this week, our youngest son, 
Taylor, took his own life. Taylor had just turned 17 and was only 2 
weeks away from beginning his senior year in High School. This past 
spring, he would have been a starting pitcher on the varsity baseball 
team, his dream. He had made an excellent score on his SAT test, and he 
and I were preparing to begin making college visits. He was in love and 
was convinced that he had met the girl of his dreams--he was already 
talking about marriage (as crazy as that sounds)! Taylor was well-liked 
by all who knew him--adults tell us he was one of the most well-
mannered young men that they ever met--he was always smiling! His 
friends tell us that he was one of the nicest kids on campus, a ladies' 
man that was a real charmer. Over 3,000 people attended Taylor's 
funeral.
    Nearly everyone that has visited with us since this tragic event 
has commented that if they had been asked to predict which of the kids 
at Plano West HS would have been prone to commit such a tragic act, all 
said that Taylor would have been at the very bottom of their list.
    So why would such a nice young man with his whole life in front of 
him take such an irrational step? I am convinced that anabolic steroids 
played a significant role in causing the severe depression that 
resulted in his suicide. Yes, steroids--a drug that I have learned can 
be just as lethal as any of the other ``classical'' drugs that we've 
heard so much about--heroin, cocaine, and others. And, I have learned 
that what happened to Taylor--the events leading up to and including 
his suicide--are right out of the ``textbook'' on steroids.
    Taylor was a pitcher. During the fall of his junior year, his JV 
coach told this 6'3'', 175-pound young man that he needed to ``get 
bigger'' in order to improve his chances of making the varsity team. 
Senators, I've been around baseball all my life and I still haven't 
figured out why he needed to be any bigger in order to throw a 
baseball. But, whether or not the coach was correct, he never backed up 
his directive with any instructions on what kind of diet or exercise 
program that he should follow to meet his goal.
    Taylor took his coach's advice seriously, and somewhere along the 
line, he made the decision to use anabolic steroids as a short-cut to 
help him reach his objective. Over the next four months, Taylor did 
``get bigger.'' He put on about 30 pounds and developed a number of the 
classical physical side effects of steroid use. Moreover, his whole 
personality changed. He went through serious mood swings ranging from 
periods of extreme anger to periods of depression.
    I didn't know that much about steroids until after Taylor's death. 
But, I have done a lot of reading in the meantime and have had the 
opportunity to speak with a number of the world's experts on this 
subject, experts like Dr. Wadler from NYU and Dr. Pope from Harvard and 
others. In addition, several large news organizations (including the NY 
Times, CBS 60 Minutes and 48 Hours, Fox News Network, and others) have 
turned over every stone that they could in an effort to understand what 
happened here. And, through their work, we have had multiple experts 
confirm that anabolic steroids are very capable of causing the kind of 
depression that Taylor experienced, severe enough to result in suicide.
    The reason that I am here today to share with you a little of what 
I've learned about steroids so that you will be able to benefit from 
our experience. I am absolutely committed to seeing that Taylor's death 
will not go in vain.
    There are numerous types of anabolic steroids--and each and every 
one of them requires a prescription.
    How do kids take these steroids? Some take them orally or they can 
be rubbed on the skin. Taylor, like many kids, was using needles to 
inject steroids into his body. I want you to imagine for a moment how 
horrifying it was to go through his room after the funeral and find his 
stash of vials, needles and syringes.
    Who uses steroids? Many studies have been done, and most of the 
experts that I've spoken with put the usage rate at about 4-5% of the 
total US High School population. Several studies have put the use of 
steroids at about 11% of the male population in some parts of the 
country--especially in the South where I come from. These numbers 
really begin to take on more significance if we assume that most of the 
steroid abusers are involved in athletics--a subset of the overall 
student population. The kids tell me that between one-third and one-
half of the players on some of our local Piano football teams are 
``juicing"!
    Where do kids obtain their steroids? Steroids are sold by drug 
pushers at most local gyms--yes, at almost any gym right in your home 
town where the big guys work out. Many of the steroids in our part of 
the country are purchased in Mexico and then brought across the border. 
Or, they can be easily purchased over the Internet.
    Let's not kid ourselves--our kids use steroids because they work 
well. They help the boys bulk up and give them the feeling that they 
are better in their particular sport than those players that are not 
taking steroids. And, once some of their teammates start using 
steroids, other members of the team feel the need to use the drug in 
order to remain competitive.
    There are a whole list of longer-term physical side affects of 
steroid use which we could discuss--in short, there are virtually no 
organs in the body that are not negatively impacted by steroids. But, 
there is also another list, a list of more immediate psychiatric 
dangers. I want to go over them briefly, because of our experience with 
Taylor. Even though athletes think that they are feeling better, most 
experience wide mood swings ranging from periods of violent, even 
homicidal episodes known as ``ROID rages.'' In addition to these rages, 
users can suffer from: paranoid jealousy, extreme irritability, 
delusions, and impaired judgment resulting from feelings of 
invincibility.
    In addition to the ``hypomanic'' symptoms that can occur during 
steroid exposure, there can be equally dangerous depressive symptoms 
from steroid withdrawal. Even when the user stops using the drugs, 
severe bouts of depression can result. According to the DEA, that the 
depression that follows steroid use is so severe that it can lead to 
suicide attempts, and that these affects can last for a year or more 
after the abuser stops taking the drugs.
    You will be interested to know that Taylor told us, his doctor, and 
his closest confidants that he had stopped taking steroids about 2 
months before he hung himself.
    Now, let me tell you a little bit about how the steroid industry is 
making it easy for our kids to purchase their wares!
    A quick search for ``steroids'' using the Yahoo search engine 
yielded over 2 million sites where information, accurate and 
inaccurate, can be found. When I put the words ``Buy, steroids, 
online'' into the Google engine, over 300,000 sites popped up! 
Senators, all our kids need is a credit card number or a money order to 
have hard core prescription anabolic steroids delivered right to their 
doorstep!
    Take a look for yourselves when you get back to your office. I was 
shocked to learn how easy it is to purchase this junk--I am certain 
that you will be too!
    Now, what can we do about it?
    I will divide my recommendations on this subject into two 
categories--what you can do as government officials and what we can do 
as citizens.
    As public officials, I encourage you to take steps to insure that 
better testing and education is made available.
    I believe testing is a crucial way of controlling the abuse of 
steroids among athletes--it is the only way to know for sure whether 
our kids are using these drugs.
    But, our local Plano officials have come up with a multitude of 
excuses for not adopting such a policy in our schools. They continue to 
bury their head in the sand and keep repeating the worn out line that 
``there is not a steroid problem in Plano.'' They go on to comment that 
even if there were a steroid problem--that this is society's problem to 
deal with, not theirs. Some of my local officials have expressed 
concern about the possible legal ramifications of such an approach, 
even though the US Supreme Court has already affirmed the legality of 
drug testing.
    Some say that testing costs too much-somewhere between $60 and 
$200. Costs too much? I for one would rather see whatever money is 
required to be spent to protect our children from this deadly drug. The 
good news is that there are ways of managing these costs.
    Let's put testing on the list of funding priorities that we have 
for our schools and stack it up against the need for new athletic 
facilities and other programs. I think our kids' lives are worth it, 
and I hope you do too.
    I strongly believe that the best weapon that we have in this fight 
is education, because prevention is the best approach to reducing the 
demand for anabolic steroids.
    Current users, coaches, and parents need to know about the hazards 
of its use. Our students need to understand that they are not ``bullet 
proof' and that these drugs can seriously harm them. But, warning a 16-
year-old about the dangers of having a heart attack, developing liver 
problems or other maladies when he turns 35 or 40 will probably fall on 
deaf ears.
    That's why I believe that coaches are the most important first 
targets for this education, because they are the key to solving this 
problem. Why? Because they are the ones positioned to reward kids that 
take steroids--they make the decision as to who makes the team or not, 
who makes the starting line up or sits the bench.
    We must take active steps to make coaches more responsible & 
accountable for supervising the use of steroids by their teams. I feel 
strongly that we need coaches that are:
    (A) Formally trained to recognize the symptoms of steroid abuse,
    (B) Trained to know what to do about it when they find it, and
    (C) Held accountable for insuring that their teams are steroid-
free.
    Furthermore, I feel that our coaches need to be certified--to have 
to pass a minimum threshold of training and testing before they are 
turned loose to supervise our kids. Today's group of HS coaches receive 
NO TRAINING on the subject of steroids and are (in my experience) 
disavowing any responsibility for challenging their athletes on this 
problem. As a matter of policy, our coaches must talk openly and 
actively with their teams about this topic. And, we must insist that 
they enforce a ZERO TOLERANCE policy against steroid abuse--get caught 
using steroids and the student is either put into a formal 
rehabilitation program or kicked off the team!
    Yes Senators, a coach may lose his #1 pitcher, star quarterback, or 
runner for the season, but I am convinced that this drug abuse won't 
stop until our athletes are convinced that there are real consequences 
to this drug abuse. With the strong peer pressure to use steroids 
combined with the ``wonderful'' example being set by our professional 
athletes, I am certain that a slap on the wrist just isn't enough to 
curb this rampant abuse.
    To help fill this education void, we have just formed a non-profit 
foundation--The Taylor Hooton Foundation for Fighting Steroid Abuse. As 
far as we know, we are the only private group in existence that is 
organizing to help fight this battle. We have opened a website, and 
have begun a fund raising campaign targeted at raising $5 million this 
year for this national education effort. We would like to find ways to 
work with you to make our Foundation part of your effort moving 
forward.
    There are other things that you can do such as strengthening the 
penalties for distribution and possession of this drug, and finding 
ways to stop the flow of this drug across our borders. But we can talk 
about those ideas and others in the Q&A period.
    Creative legislation is needed NOW. Doing nothing will insure that 
steroid use will grow--the demand for steroids continues to grow and 
has not been deterred by recent events. Coaches continue to look the 
other way for whatever reason, and parents continue to push their kids 
to get that scholarship. Knowingly or unknowingly, our kids continue to 
be pressured into using steroids.
    Let me close by telling you how much I appreciate your taking the 
time to listen to this message today. And, my sincere prayer is that 
some of the knowledge that I shared with you in this message will help 
you to better understand how you can help some boys or girls avoid the 
terrible fate that was Taylor's.
[GRAPHIC] [TIFF OMITTED] T8053.037

    Chairman Grassley. Thank you, Mr. Hooten.
    Now, Dr. Catlin.

 STATEMENT OF DON H. CATLIN, M.D., PROFESSOR OF MOLECULAR AND 
              MEDICAL PHARMACOLOGY, UCLA OLYMPIC 
                     ANALYTICAL LABORATORY

    Dr. Catlin.  Good morning, Senators Grassley and Biden, 
ladies and gentlemen. It is a pleasure and an honor to speak to 
you today.
    Twenty-two years ago, I was pursuing a classical career as 
an academic physician at UCLA, but my world abruptly changed 
when a member of the IOC--the International Olympic Committee--
came to visit and asked if I would develop a laboratory that 
could test athletes for competing in the 1984 Olympic Games. He 
showed me a list of the drugs that were forbidden, and although 
I was a practicing physician at the time, many, many of these I 
had never heard of. I simply did not know what they were. I was 
really quite naive. I did not understand why a young person at 
the top of their athletic career would take a drug. It made no 
sense. But when my Olympic visitor came back a few weeks later, 
I had said, no, we cannot do this. This is not something I know 
how to do. I am not a chemist.
    But I went out to read about it. I went to the medical 
library. One article that I found explained that anabolic 
steroids do not work. All you have to do, it was explained to 
me, is educate athletes and the problem will go away.
    [Pause to fix microphone.]
    Dr. Catlin.  So all you have to do is educate athletes, 
said this expert, and the problem would go away. Now, this was 
strange. Why was the IOC coming to Los Angeles to want to 
develop a lab if the drugs do not work?
    Well, so I went to the local gym, and that is where I 
learned real quickly what steroids can do for you. They are 
extraordinarily potent drugs. They profoundly alter your 
performance. They can make you jump higher, swim faster, climb 
faster, run faster. Big muscles are not supposed to be fast 
muscles. If your high school coach says, as we have heard 
today, ``Put on 20 pounds over the summer, and you will start 
in the fall,'' there is only one way to do that, and that is 
anabolic steroids.
    They can make you look buff, have better-defined muscles, a 
look that is considered desirable, particularly in the 
adolescent. Interestingly, the buff look is sought after by 
both boys and girls. Girls do not want big, huge muscles. They 
are more desirous of better definition of their muscles and one 
effect of the steroids to decrease body fat.
    Once I realized steroids were so powerful, it was 
immediately clear why sports had to do something about it. A 
playing field is not level when there are two sports: one with 
steroids and one without steroids. And those sports where 
steroids affect the outcome, there are winners and there are 
losers, and if you are not taking the steroids, you cannot win.
    I brought along a few slides to illustrate some of my 
points. In the very first slide you see Ben Johnson before 
steroids. This is the year 1988. In the second slide, this is 
Ben Johnson after steroids, taken a few months or years later. 
It is the same athlete before and after. That big thing on his 
shoulder that looks like a melon is his deltoid muscle. There 
is no question that anabolic steroids work. This is the kind of 
effect they have. You do not need to do a lot of research to 
show this.
    This is Ben Johnson on his way to defeat Carl Lewis in the 
100-meter dash, and later that day Ben Johnson's urine was 
found to contain stanozolol, an anabolic steroid. The Olympics 
literally stood still for a day while the sport community came 
to grips with its first major drug scandal. Before that, we 
knew that weight lifters used steroids, but weight lifting was 
not terribly telegenic, and I do not think the world cared, but 
in 1988 they started sitting up and paying attention.
    Now, how far have we come since then? This is something I 
think we have to focus on. There is a cost, and I would like to 
address the cost. The next slide is a schematic that shows 
where all of the effects of the anabolic steroids are. They 
affect really every organ of the body. There is not a single 
organ--the skin, the brain, the blood, the heart--that is not 
affected. Many of the effects are internal or invisible, but if 
you study the blood, there are changes. There are changes in 
blood cholesterol. The good cholesterol goes way down, and the 
bad cholesterol goes way up. This may well be setting the stage 
for cardiovascular disease in the future.
    The next slide shows gynecomastia. This is quite common. 
These are breast tissue. That is a male, and you can also see, 
if you look carefully, that there is lots of acne--zits. And 
what is happening here is that the male body is responding to 
the anabolic steroids and turning more like a female and the 
female is turning more like a male. That is what is going on 
internally.
    Now, there are ways to deal with this. This gynecomastia 
will go away if you stop the steroids and wait quite a while, 6 
months or a year. Oftentimes they will have them surgically 
removed. Strange as it may seem, the steroids make men more 
like women and the women more like men. For women, their 
breasts shrink, their menstrual periods become irregular, and 
their clitoris enlarges. For men, their breasts enlarge, their 
testicles shrink, and they become eventually impotent.
    Inside the body there are still more profound changes in 
all of the hormones. The glands that normally control manlihood 
wither and stop producing. The body lives off of the anabolic 
steroids that they are taking. When they are finally 
discontinued, it takes months for these effects to reverse. You 
cannot just turn the switch and get back to normal. Some of the 
effects may well be permanent. And one of the worst things that 
can happen to an adolescent who takes anabolic steroids is they 
stunt their growth. They stop the long bones from growing, and 
you are permanently shorter than your God-given height would 
have been. Anabolic steroids should never be taken by an 
adolescent.
    I was very interested to know more about the effects on 
women, so I opened a little clinic at UCLA to see if I could 
attract women who were taking anabolic steroids. There is 
nothing written about them. Nobody came for quite a while. 
Finally, a couple started to come in, and they had two main 
complaints: What could they do about their low voice? Several 
of their mothers said, ``Why do you still have a cold?'' and 
they had no answer for them. The second thing they were 
concerned about was the effect on their periods and whether 
they were ever going to be able to have children. The main 
issue with the amenorrhea--that is the loss of periods--is the 
fear that they will not have children. In fact, if they do 
become pregnant and they have been taking anabolic steroids, 
they can have some terrible side effects on the fetus, such as 
the fetus growing a penis-like appendage.
    Many of my patients wanted to discontinue steroids, but 
they were critical to their work as bodybuilders, and most of 
them made the choice to continue. I was able to successfully 
get a few off, but only by really dint of hard work and 
explaining how these side effects were going to catch them one 
of these days, and it was time to stop, and I would actually 
work with them.
    One of the most common effects in women is virilization. 
They begin to look like men. A little bit is okay for the young 
lady of today because they want the tone-up, the feeling, they 
want a little bit of definition in the muscles. But what they 
do not want is this--they do not want too much hair on the face 
or the back or other places. Another thing that steroids do to 
the skin is make it oily, and plug the sebaceous glands, and 
you can have terrible types of acne.
    We have seen some of this in the old days. This slide is of 
an East German female on the lower left corner while taking 
anabolic steroids. We all know that now. There were little blue 
pills at the breakfast table, and if you did not take them you 
were off the team. On the right, you see the same lady with all 
of her medals that she collected in Olympic sports, but now she 
has been off steroids for some time. They really do work. They 
really do enhance performance, and those effects, as you can 
see here, it looks like she has shifted there, getting better.
    A rare, but distinctly unattractive effect in males and 
females, is keloid tissue. This is keloid tissue here in a 
male. And that is areas of skin that are thin and allow the 
blood vessels to show through. These lesions will gradually 
regress, but it takes a long time.
    For the psychiatric and behavioral changes, which we have 
heard about, we have no slides. I cannot find a slide that will 
change things, but I will tell you a story and I have heard 
similar stories before. Some years ago, a law-abiding citizen, 
a productive citizen who never took anabolic steroids, stopped 
at a convenience store on his way to work, and he bought a 
soda. Now, he had never taken steroids before, but about a 
month before this trip to the store to get the soda, he started 
Dianabol. He asked for a soda, and the clerk gave him change, 
and he thought that she was a bit surly. That night he obsessed 
about the incident. He got out a long hunting knife, and he 
sharpened it.
    The next day he went back to the store, and he grabbed the 
clerk and put her in his car and drove off down the road. They 
had to slow for some construction. She jumped out and was 
severely injured--a paraplegic. He went home and sat and waited 
for the police, and when they arrived he said, ``I do not know 
what it is. It must have been the steroids.''
    They affected and altered his brain. Why him? I do not 
know. Not everybody is affected this way. I cannot prove beyond 
a shadow of a doubt that the anabolic steroids did this, but I 
am sure in my heart we cannot do the kinds of studies that you 
need to do to prove this. They would not be considered ethical. 
But I have heard this kind of story, where you take a normal 
person, absolutely healthy, and their behavior changes abruptly 
and starkly, and they do really weird things and sometimes 
heinous things. It does not happen to everybody, fortunately.
    ``Roid rage,'' on the other hand, is another kind of 
change, and that is much more common. This is used to describe 
men that become hyperaggressive, combative and argumentative on 
steroids. There are various grades of this. Medical patients 
who take anabolic steroids for conventional illness describe 
some of these things, but not so much. Solid statistics are not 
available. We cannot say how many people get 10 degrees of 
steroid rage, but we know it is happening.
    Athletes and adolescents are not stupid. They will not take 
a drug if they know there is going to be a side effect 
instantly within days. What they have trouble doing is 
evaluating the long-term effects and the risks and benefits. 
They do not believe that they are--they think they are 
invincible or indestructible or it will not happen to me. Some 
of the effects that I am showing you, and will show you, are 
things that just occur out of the blue. We do not know why they 
happen, although they are the most serious side effects like 
this next one.
    This slide shows a liver tumor. The whole left side of the 
liver is replaced by a tumor. This is associated with anabolic 
steroids. It is rare, but if you happen to be the person who 
gets that tumor, that means that essentially you may well die. 
They can trigger cancer--not very often.
    The next slide is a very ugly-looking tumor, also the same 
sort of thing. We cannot look, as physicians, at somebody and 
say, ``You are going to get a tumor.'' We do not know who is 
going to get a tumor, who is going to get these terribly 
adverse side effects.
    This slide shows a side effect called peliosis. You see the 
liver on the right, and it is kind of knobby, and it looks like 
it has got a bunch of blood-like things on the surface. And you 
see a microscopic section of it on the left. Those are blood-
like lakes. The liver is turning into a lake of blood vessels. 
And this tumor, if it bleeds, is essentially malignant. You 
bleed into your abdomen, and you can die. It is a terrible side 
effect. Again, it is not terribly common, but if you are the 
one that gets it, it is trouble.
    Can you figure out what this slide shows? This is a tendon. 
This is a surgical view of a knee, and the knee has been opened 
by the surgeon, and there is a tendon sitting out there. And 
basically what has happened is that the strength and power of 
the muscles of the leg have overpowered the tendons and just 
snapped them. Now, the human body is not built to withstand the 
kinds of forces that muscles can put it on when those muscles 
are under the influence of anabolic steroids. So you have to 
call a surgeon to come in and try to get to that tendon and fix 
it, get it back to where it belongs.
    The person in this slide is well-known, but not with us any 
more. This is Lyle Alzedo on the cover of Sports Illustrated 
many years ago. He died of an unusual type of cancer. In his 
mind, the tumor was due to steroids. Whether or not it was, we 
will never know. Some experts doubt it, but it is important 
that Lyle Alzedo believed they were due to steroids. He was a 
huge, powerful man who had a huge influence on the National 
Football League, and I believe that his passing did more to 
curtail the use of steroids because of his incredible role 
model place in society than anything else at that time and era. 
We need role models now. Certainly, not like this, but how can 
we find role models who can stand up and say, ``I do not take 
steroids. There is another way to do it.''
    Why do adolescents take steroids? Ten or more years ago, 
they all were taking them to improve their performance in 
sports. Now, things are different. There is a trend toward 
using anabolic steroids simply to get buff, to tone up, to get 
muscles that are very easily seen. The athletes want to get 
bigger and stronger, but not so much the nonathletes and the 
females. They just want to be buff. They want to look better. 
They want to tone up. They want muscles that are distinct. All 
surveys today and epidemiology studies are showing a steady 
increase in this usage among adolescents.
    Typically, they begin with over-the-counter steroids 
readily available. ``How can there be anything about an over-
the-counter steroid which is dangerous?'' they ask. The next 
thing they do is go on to stacking, taking two at a time. The 
more determined ones, the ones who now want to go into sport, 
will take injectable steroids, and then they are off on a long 
and complicated course.
    As we have heard earlier today, there seems to be really no 
way to stop the availability of anabolic steroids. They are 
available on the web. Is supply limiting? Probably not. 
Controlled steroids are readily available around gyms, the web, 
from Mexico. Worse yet, the local health food stores, as we 
have heard, have a variety of them. The DSHEA Act actually 
helped make steroids more available because all you had to do 
was to show that the steroids occurred naturally, and they 
could be used.
    This slide provides a short list--a very short list--of 
some of the steroids that are available over-the-counter. 
Androstenedione is perhaps coming off the list. These are 
everyday steroids that are powerful. And I show you one little 
chemistry slide because I want you to see what testosterone and 
andro look like side-by-side. You could stare at it for 5 
minutes, and maybe you could see a difference. That is 
androstenedione or ``andro'' on the top, and that is 
testosterone on the bottom.
    Now, we all know that testosterone is the male hormone that 
is what makes men, men. And andro is, if you look in the upper 
right-hand corner, you will see a tiny, little difference. I 
cannot point to it, but one is an OH group on testosterone and 
andro is simply an O group. That subtle, small change is what 
makes androstenedione and you just put it in the body, and it 
changes instantly to testosterone. Andro is sold over-the-
counter; testosterone is a normal, natural steroid.
    Lastly, I want to mention THG, which has become famous in 
the last year. It is a designer steroid. Are there more out 
there? Probably. Almost certainly. It shows, in one sense, how 
far we have come; what people will do to try to take anabolic 
steroids and others. On the other hand, it shows how far we 
have come to be able to detect it.
    Ladies and gentlemen, the problem that we are talking about 
will not go away without serious commitment and attention. I 
commend your efforts in the current bill, and I support the 
Act, and I urge you to deal in every way you can imagine with 
education, testing and try to return sport to its rightful 
place and to keep adolescents away from these things.
    Thank you.
    [The prepared statement of Dr. Catlin follows:]
   Statement of Dr. Don H. Catlin, M.D., Professor of Molecular and 
        Medical Pharmacology, UCLA Olympic Analytical Laboratory
    Good morning Senator Grassley, members of the Drug Caucus, ladies 
and gentlemen:
    It is a pleasure and honor to speak to you today. Twenty years ago 
I was pursuing a classical career as an academic physician at UCLA. My 
world abruptly changed when a member of the International Olympic 
Committee (IOC) came to visit and asked if I would develop a laboratory 
that could test the urine of athletes competing in the 1984 Olympic 
Games. He showed me a list of the drugs that were forbidden, and 
although I was a practicing physician, I barely recognized many of the 
drugs. Besides I was a physician not a chemist--so I turned him down. I 
was so naive that I could not understand why a young athlete, at the 
pinnacle of their sport career, would take a drug. Athletes are young 
and healthy. It made no sense. But he came back a few weeks later and 
by then I had learned a few things.
    I went to the medical library and looked for articles about drugs 
and sport, but I could not find much. I did find one article by an 
influential editor of a Sportsmedicine Journal. He explained that 
anabolic steroids do not work: ``all you have to do is educate'' the 
athletes and the problem will go away. This was strange--why was I 
asked to develop a lab to test Olympic athletes for steroids if they 
don't work.
    My next stop was a local gym where I very quickly learned what 
anabolic steroids can do for you: They are extremely potent hormones 
that can profoundly alter your athletic performance--and cause many 
nasty side effects. They can make you run faster, jump higher, and lift 
more--things that matter if you are an Olympic athlete. If your high 
school football coach says ``put on twenty pounds over the summer and 
you will start in the fall'' there is only one way to do it--anabolic 
steroids!
    Steroids can also make you look ``buff''--have better defined 
muscles--a look that is considered desirable, particularly in the 
adolescent. Interestingly, the buff look is sought after by both boys 
and girls. The girls do not want the huge muscles, they are more 
desirous of better ``definition'' of their muscles, less body fat, and 
better muscle tone.
    Once I realized that anabolic steroids were so powerful, it was 
immediately clear that they should be forbidden in sport. Essentially 
there are two sports: one with and one without steroids. In many sports 
there is no hope for the ``level playing field'' if steroids are 
around. The issue was and still is how to control or curtail the 
problem. For the last twenty or so years I have sought to better define 
the issue and perhaps to make it better--in short, I devoted my 
professional life to the problem of drugs and sport. Now the issue is 
well beyond sport, the abuse of anabolic steroids has become a serious 
and growing concern for all.
    I brought along a few slides to illustrate some of my points. In 
the first [Ben Johnson before 1988 Olympics] you see an athlete 
walking. In the second slide [pineapple] taken a few years later the 
same athlete is seen leaving the starting line at the 1988 Olympic 
Games in Seoul. It was Ben Johnson leaving the starting blocks on his 
way to defeat Carl Lewis in the 100 meter dash. Later that day his 
urine was found to contain stanozolol, an anabolic steroid. The 
Olympics literally stood still for a day while the world came to grips 
with the its first major sport drug scandal. Before that, we sort of 
knew that weightlifters used anabolic steroids, but the public was not 
so interested in weightlifting and it is not a particularly telegenic 
sport. But this was Track and Field, the 100 meter dash, Carl Lewis 
versus Ben Johnson--a truly premier event. The enormous pineapple 
[slide 2] sitting on his shoulder--that is his deltoid muscle. This 
photo removes doubts about whether or not steroids work. Of course they 
do! They work in men and still more in women.
    But there is a cost.
    The next slide [schematic of a person with arrows pointing to body 
organs] shows that anabolic steroids produce changes in virtually all 
organ systems: liver, heart, skin, brain, and more. Many of the effects 
are internal metabolic changes that cannot be directly observed. But if 
you study the blood there are changes in blood cholesterol and many 
other hormones that circulate [point]. The level of HDL-cholesterol 
level (the good cholesterol) in blood goes down and the LDL-cholesterol 
goes up, and the ratio of bad to good cholesterol goes way up. This 
ratio is a marker for cardiovascular events such as myocardial 
infarctions, blood clotting, and strokes. We know these serious adverse 
effects are associated with AAS, but they occur relatively infrequently 
and we have no way to predict who will get them. The elevated bad to 
good cholesterol ratio makes us concerned that there will be more 
cardiovascular side effects months and years after the steroids are 
discontinued.
    The next slide [gynecomastia] is one of the most common side 
effects of AAS in males. Somehow the balance of male and female 
hormones is changed by AAS such that men develop female-like breasts. 
This effect will reverse if the steroids are discontinued, but often it 
takes months or years of being steroid free. Sometime the males resort 
to surgery to ``get back to normal.'' The next slide [microscope view 
of sebaceous glands] shows a microscopic view of acne (zits) which are 
very common among AAS users. The drugs make the sebaceous glands, shown 
here on the right, very big and juicy. The gland on the left is normal. 
If the sebum clogs the channel from the subcutaneous tissue to the 
skin, inflammation breaks out and one gets ugly inflammatory acne.
    Strange as it may seem, AAS in some ways make men more like women 
and women more like men. For women, their breasts shrink, their 
menstrual periods become irregular, and their clitoris enlarges. For 
the men, their breasts enlarge, their testicles shrink, sperm 
production declines then stops altogether and they are sterile.
    Inside their body there are profound changes in many hormones that 
are made in the pituitary gland. In effect the pituitary-testicular 
axis, the glands that normally control virility and manhood in the 
male, wither and stop producing. The body ``lives off the supply of 
foreign steroids.'' When the AAS are finally discontinued, it takes a 
long time, months and years, for the effect to reverse. Some of the 
effect may be permanent.
    In order to learn more about the adverse effects in women, a 
``closet'' topic about which virtually nothing is published, I started 
a clinic for women steroid users. At first nobody came. Finally a few 
from the bodybuilding culture came to see me. They had two main 
complaints: what can I do about my low voice and when will my periods 
come back. The low voice is due to the effect of AAS on the larynx. It 
is a disaster for a female. The ladies have trouble explaining to their 
moms that the low voice is due to a cold--when it never goes away. The 
main issue with the amenorrhea is the fear that they will not be able 
to have children. As far as we know the AAS will not effect pregnancy 
but there are no studies on this. None of them wanted to discontinue 
steroids as they were critical to their work as bodybuilders, but all 
wanted their voice back and reassurance that they will be able to have 
children when they do quit. Several had high blood pressure and I used 
this finding as a way to keep them coming back to the clinic. 
Eventually I was able to show them their abnormal blood finding and 
this interested them. A few actually did quit AAS. Although it is 
written that steroids produce drug dependence like heroin and cocaine, 
I did not observe any evidence of dependence.
    Of course the most common and feared effect in women is 
virilization--they become more masculinized. A little bit is OK because 
it tones up the muscle, but when the hair growth on the face gets out 
of control as shown in the next slide [female with hair growth on face] 
virilization has been established and is definitely not wanted. Other 
findings that go along with virilization are more hair on the back, 
chest, and under the arms; less hair on the head (temporal balding); 
oily skin, and acne. These side effects also happen to men but they are 
less apparent and somewhat moot. Adolescents certainly do not want acne 
(pimples and zits). By explaining that this is a common side effect of 
AAS I have had some success in persuading some adolescents not to take 
AAS.
    The next slide shows a former East German well-known swimmer. In 
the inset [slide of East German female] of the slide is the before 
photo showing a markedly virilized woman with massive arms and 
shoulders and lots of underarm hair. A few years later in the right 
side of the photo, she is shown off all steroids and with her Olympic 
Gold medals around her neck. During the 1970s and early 1980s, the East 
German teams were invincible, largely due to steroids. The athletes had 
no choice, there were little blue pills at the breakfast table and you 
took them or you were off the team. The accounts of the effects on the 
women, the terrible side effects, and how the athletes were coerced are 
quite horrifying.
    A rare but distinctly unattractive effect in males or females is 
linear keloids [slide with keloids]. Keloids are areas of the skin that 
are thin thus allowing the blood vessels that are normally not visible 
to show through. These lesions will gradually regress if the steroids 
are discontinued.
    Psychiatric or behavioral changes do not lend themselves to photos, 
so I will tell a story: Some years ago a man on his way to work stopped 
at a convenience store on a country road, bought a soda, and asked for 
change to use the phone. He thought the clerk was a bit surly. That 
night he obsessed about the incident, dug out his old hunting knife and 
sharpened it. The next day he went back to the store with the knife and 
abducted the clerk. He had to slow for construction, she jumped out of 
the car and was severely injured. He went home and waited for the 
police. When they arrived he said ``I don't know what happened, it must 
have been the steroids.'' Now, I cannot prove beyond a shadow of a 
doubt, according to placebo-controlled, accepted medical research 
protocols, that anabolic steroids altered this man's psyche such that 
he could do this. But I am convinced that the anabolic steroids were 
instrumental. Before the event he was a law abiding productive citizen. 
One cannot do research to see if such things happen--it is not ethical 
and would not be approved by ethics committees. But I have read and 
studied other dramatic cases that convince me that AAS severely alter 
the mental status and behavior of some people. I know of no way to 
predict who will have such remarkable behavioral effects, they are not 
very common, but they do happen.
    On the other hand ``roid rage'' seems to be quite common. This term 
is used to describe men that become hyperaggressive, combative, and 
argumentative on steroids. There are many grades of roid range. Whether 
or not the bizarre event that I just described is an advanced form of 
roid range or something entirely different remains to be elucidated.
    Medical patients who take anabolic steroids in conventional doses 
for an illness generally do not experience much behavioral change, 
although a few cases of profound psychopathy are described. Some 
behavioral effects are much more common, but it is difficult to know 
just how common they are. Solid statistics are just not available in 
this field. Some of the most commonly described behavioral effects of 
AAS are mania, hypomania, and depression--such as you heard described 
by Mr. X. Sadly, suicide has been described as a side effect of AAS.
    Athletes and adolescents are not stupid. They will not take a drug 
if the risk of a serious adverse side effect is high, however they do 
greatly underestimate the risks. They simply do not have the background 
or training to evaluate the risks. They tend to believe, as many young 
people do, that they are invincible and indestructible, or it ``won't 
happen to me.'' They are not good at assessing the risks and benefits, 
largely because their information comes from dubious sources. Indeed 
the most serious adverse side effects are rare, the problem is that if 
you get one of them it is generally too late. They are invincible--and 
so they start.
    Tumors, neoplasia, benign and malignant cancers have all been 
associated with AAS. The ugly mass filling the left side of this 
patient's liver [slide of liver tumor] is one example of a tumor 
associated with AAS. And the next tumor [very ugly tumor] is even more 
dramatic and frightening. These lesions do occur, they are not common, 
but they are dramatic--particularly to affected persons.
    The next slide is peliosis hepatitis [slide of peliosis], a rare 
and dangerous tumor of the liver that is associated with AAS. It is not 
dangerous because it is malignant, it is dangerous because the tumor is 
very vascular and tends to bleed. The liver is gradually replaced by 
these lake-like lesions. If they start to bleed, they are vary 
difficult to control. The patient bleeds into their abdomen. This 
complication, while fortunately rare, is highly dangerous: patients can 
bleed to death internally.
    Can you figure out what this remarkable slide is showing? It is a 
surgical scene. The surgeon has opened up the knee joint. It is a 
frontal view, what you would see if your neighbor's knee were being 
operated on. That little strap-like thing coming out of the wound is a 
tendon [slide of tendon]. The tendon belongs to a very strong athlete. 
So strong that he snapped the tendon when he was doing a squat. The 
steroids are so powerful that they can lead to ruptures like this if 
the muscles become too strong for the rest of the body. Also the 
steroids may weaken tendons.
    This person is well-known and not with us any more [slide of Lyle]. 
This is Lyle Alzedo on the cover of Sports Illustrated many years ago. 
He died of an unusual type of cancer. In his mind the tumor was due to 
AAS. Whether or not it was, we will never know, and some experts doubt, 
but it was important that Lyle believed his tumor was due to AAS. He 
was a huge powerful man, the terror of the NFL, with a profound 
influence on professional football players. His passing, I believe, did 
more to curtain AAS use among athletes than any other single event.
    Why do adolescents take steroids? Ten and more years ago the 
surveys showed that adolescents only used anabolic steroids to improve 
their sport performance. Further they were virtually all males. Now 
there is a distinct trend toward using anabolic steroids to be more 
buff, to tone-up. The athletes still wish to get bigger and stronger 
but now so do the non-athletes and the females. They want muscles that 
are distinct and ``cut''--like rabbits running under a rug. All surveys 
and epidemiology studies are showing a substantial increase in usage 
among adolescents.
    Typically, they begin with oral doses of an OTC steroid. How can 
there be anything dangerous about an OTC drug, they ask? Stacking 
describes adding another steroid. The more determined users move on to 
injectable steroids or take multiple types of steroids (stacking). If 
they are competing athletes that are subject to testing, such as the 
NCAA athlete, they learn various ways to avoid getting caught. 
Generally, the AAS user is not very selective about where they will get 
their steroids. They will take steroids from a variety of sources: 
friends, contacts, websites, doctors and pharmacies that deal in 
steroids, and other clandestine sources. Veterinarian steroids are 
particularly popular these days.
    Switching gears a little bit as I approach the conclusion, please 
focus for a moment on OTC steroids.
    Is supply limiting? I do not believe that supply is a problem. AAS 
are readily available around most gyms, on the web, and across the 
border. The local health food stores carry an incredible array of over-
the-counter steroids--steroids that are presently legal and, in fact, 
enabled by the DSHEA Act. This 1994 Act was a boon to the supplement 
industry because it legitimized many OTC steroids. As long as the 
manufacturer could show that the steroid occurred naturally, it was 
possible to package it and sell it as a OTC supplement. Further, the 
health risks of anabolic steroids are the same for the OTC steroids as 
they are for the prescriptions ones.
    Here is a short list [slide of OTC steroid names] of steroids that 
are available OTC. (Dhc reads them out.) And here is the chemical 
structure of testosterone on the left and andro or androstenedione on 
the right. [Slide showing chemical structure of andro and T]. Can you 
see the difference? Well, it is not easy for the layperson, but if you 
look carefully right here (Dhc points) you can see a subtle difference 
in the structures, one is a prohibited AAS that can lead to jail time 
and the other is Andro or androstenedione. Testosterone is a 
prescription drug and Andro is sold OTC. Ladies and gentlemen, Andro 
and other steroids should not be sold over-the-counter.
    One cannot reasonably expect to get them out of sport if they are 
available for the asking in the shops, ``health'' food stores, and 
supermarkets.
    Last, this presentation would not be complete without mentioning 
designer steroids [show slide on THG]. On one hand, it shows just how 
desperate some people are to win an Olympic medal. On the other hand, 
it also shows just how far we have come in detecting them. Ladies and 
gentlemen, the problem will not go away without serious attention and 
commitment. Designer steroids will soon affect your local schools and 
teams. It is time to act now while the nation's attention is focused on 
the problem. It will take human and instrumental resources and a 
dedication to return pee-wee baseball and Olympic sports to their 
rightful and original condition: drug free.
    Ladies and gentlemen, thank you for your careful attention to this 
critical issue that may affect your children, and certainly plays havoc 
with sport.
[GRAPHIC] [TIFF OMITTED] T8053.001

[GRAPHIC] [TIFF OMITTED] T8053.002

[GRAPHIC] [TIFF OMITTED] T8053.003

[GRAPHIC] [TIFF OMITTED] T8053.004

[GRAPHIC] [TIFF OMITTED] T8053.005

[GRAPHIC] [TIFF OMITTED] T8053.006

[GRAPHIC] [TIFF OMITTED] T8053.007

[GRAPHIC] [TIFF OMITTED] T8053.008

[GRAPHIC] [TIFF OMITTED] T8053.009

[GRAPHIC] [TIFF OMITTED] T8053.010

[GRAPHIC] [TIFF OMITTED] T8053.011

[GRAPHIC] [TIFF OMITTED] T8053.012

[GRAPHIC] [TIFF OMITTED] T8053.013

[GRAPHIC] [TIFF OMITTED] T8053.014

[GRAPHIC] [TIFF OMITTED] T8053.015

[GRAPHIC] [TIFF OMITTED] T8053.016

[GRAPHIC] [TIFF OMITTED] T8053.017

[GRAPHIC] [TIFF OMITTED] T8053.018

[GRAPHIC] [TIFF OMITTED] T8053.019

[GRAPHIC] [TIFF OMITTED] T8053.020

[GRAPHIC] [TIFF OMITTED] T8053.021

[GRAPHIC] [TIFF OMITTED] T8053.022

[GRAPHIC] [TIFF OMITTED] T8053.023

[GRAPHIC] [TIFF OMITTED] T8053.024

    Chairman Grassley. Well, you all gave us very not only 
interesting, but very powerful, messages, and I hope that they 
go well beyond the halls of Congress. An obvious part of the 
motivation of having a hearing like this is to educate people 
besides knowing what we in Congress need to do.
    I am going to start my questioning with Mr. Doe. I need to, 
first of all, ask you why you were willing to come forward to 
speak to us about this issue.
    Mr. Doe.  I was willing to come forward because of my 
firsthand experience with college football, playing on a team, 
and I thought my message would be very informative about how 
bad steroid use can get, and as Dr. Catlin and Mr. Hooten have 
testified, the health risks and the psychological problems that 
steroids can cause. I hope that a policy can be developed to 
uniformly test college athletes and get rid of some steroid 
use.
    Chairman Grassley. How available are steroids among college 
athletes? I think you touched on this in your opening comments, 
but I give you this opportunity to emphasize just how available 
they might be among college athletes.
    Mr. Doe.  Yes, they are extremely available. You do not 
have to look too hard to find them. You can make a trip south 
of the border, or the Internet, if you do not know a dealer or 
a friend that can get them for you.
    Chairman Grassley. And I know you spoke about your own 
specific college, but in your judgment is there widespread use 
at colleges other than yours?
    Mr. Doe.  Yes. Like I said, my college looks down upon 
steroid use. And as I had imagined, there are colleges that are 
far worse, as far as steroid use. And I had the privilege to 
talk to some other Division I players that could also testify 
that their college athletes used steroids.
    Chairman Grassley. Once again, emphasize for us, from your 
point of view as a student-athlete, why is there a temptation 
to use steroids?
    Mr. Doe.  The temptation is there. You do not just have to 
look at amateur sports and college athletics. Look at 
professionals. They use steroids to break records. Just as Tim 
Montgomery was found to have been using steroids in the past 
few weeks, who already holds a world record; or Mark McGwire, 
who uses over-the-counter steroids, it is the same principle. 
Many college athletes will use steroids just to survive or make 
to an impact. They always want to get better.
    Chairman Grassley. Mr. Wenzlaff, you testified that 95 
percent of steroids in circulation are fakes. What does it mean 
to ``stack'' and what is the purpose of the term ``stacking''?
    Mr. Wenzlaff.  Stacking generally, as the doctor had 
touched upon, is the combination of two or more steroids taken 
at the same time, not necessarily starting two at the same time 
or finishing the two or more at the same time, but taking them 
in conjunction. It's the ``more is better'' philosophy, which 
is not always the case, but there is a true principle in there.
    Chairman Grassley. Let me ask you a personal question. Are 
you personally aware of the adverse health effects of steroid 
abuse?
    Mr. Wenzlaff.  Yes, I have seen some devastating effects 
through long-term and short-term use. When you are around it, 
yes, you see it. It is going to exist in anything and not just 
steroids, but basically any drug, but the answer to that 
question is, yes.
    Chairman Grassley. Why did you begin taking steroids in 
high school, and do you think that you would make the same 
choice today?
    Mr. Wenzlaff.  The answer is, no, we are smarter. Would I 
take them today? Why in the beginning? Money. I could not 
afford to go to college. It was a financial thing.
    Chairman Grassley. How hard is it to make counterfeit 
steroids?
    Mr. Wenzlaff.  It is very simple. It is as simple as 
putting sesame seed oil in a vial. There are thousands of 
people injecting that in their body, and they are unaware of 
it.
    Chairman Grassley. Are professional athletes as likely to 
take fake steroids as the average user?
    Mr. Wenzlaff.  It does occur, but not likely--money, what 
you can afford. Money is the key factor here, the ability to 
afford whatever you desire. Most kids cannot afford a several-
hundred-dollar-a-day habit.
    Chairman Grassley. Dr. Catlin, before I go to you, Dr. 
Catlin, what are check drops, and how are they used, Mr. 
Wenzlaff--check drops and how are they used?
    Mr. Wenzlaff.  Check drops are a drug, from what I 
understand, that are prescribed for dogs in heat. They are just 
that, drops. The scientific name is mybolerone, extremely 
powerful. You do not take it, compared to other drugs, for such 
a long period of time, but it is a dangerous, dangerous drug to 
play around with.
    Chairman Grassley. Dr. Catlin, how do steroids affect 
adolescents different than adults?
    Dr. Catlin.  If your long bones have not finished growing, 
they stunt your growth. Otherwise the effects are the same in 
adults, all of the effects on the hormones, gynecomastia and so 
forth. The main differences are that males respond differently 
than females. But once you reach full adolescence, they are 
going to be the same.
    Chairman Grassley. And do we know the long-term effects of 
steroids on the body? And I am not sure that I have a 
definition of long-term effect, but just kind of from you being 
a medical doctor, choose your own definition of long-term 
effects.
    Dr. Catlin.  This has never really been studied in any 
detail. These are expensive kinds of studies. But I have seen 
personally lots of patients who have long-term effects, some of 
which I would call minor and some are far more than just minor. 
The effects will regress over time, but sometimes that time 
period is 2, 3, 4, 5 years. Once these changes set in, they 
last.
    Chairman Grassley. Mr. Hooten, how did you discover there 
was a connection between your son's death and steroids?
    Mr. Hooten.  While they were taking Taylor's body from the 
house and to the hospital, the detectives asked us if they 
could search Taylor's room, which they did. Not only did they 
find his stash of anabolic steroids, but the detectives had no 
problems, at that very moment, making the connection between 
the anabolic steroids they found and what had just happened.
    As you can imagine, as a dad, I went crazy. We had been 
around the ball parks for years and were unaware of the dangers 
of this stuff. We had heard about it, and knew it was not good, 
but had no idea how dangerous it was. So, over the next several 
weeks, I began reading everything I could get my hands on, 
talking to every doctor I could speak with. And as I began to 
go through all of the materials, all of the studies, talk to 
the doctors, it was like reading a textbook, if you will, as an 
analogy, it was just like reading what had happened in our home 
over the previous 4 to 6 months. It was right out of the 
textbook--the behavior, the physical changes.
    But one of the points I would like to make here, the 
confirmation that Taylor had been taking steroids came from the 
medical examiner, who found two types of anabolic steroids in 
Taylor's body and, additionally important, found nothing else. 
There was nothing else to call this thing into question. This 
was the only stuff he had been putting in his body.
    During a conversation with Dr. Rohr, who is the Collin 
County medical examiner that took care of Taylor, he pointed 
out to me that, ``Mr. Hooten, had the detectives and the 
police, had they not made such a big deal about finding 
steroids in Taylor's room, you need to know we never would have 
looked for it.'' Even as a medical examiner, they would not 
have looked for the presence of anabolic steroids.
    A couple of points to be made there: One, had they not 
checked for it, we never would have known. But on the bigger 
picture, especially with the dramatic increase in teenage 
suicide around the country, if our medical examiners are not 
looking for anabolic steroids at the time these kids have 
committed suicide, is it any wonder that we have not made any 
empirical connection between the use of anabolic steroids and 
some percentage of the high teen suicide rate that we have? If 
the other medical examiners around the country are following 
the same guidelines that ours is, we are not even looking for 
it.
    Chairman Grassley. And my last question, I think I am going 
to make a point, and I just think it is an emphasis of what you 
already said, but you obviously feel that our coaches are on 
the front line of defense to stop the use of drugs, 
particularly among high school and college kids, and that they 
are not sufficiently informed to do it and maybe do not want to 
do it either.
    Mr. Hooten.  Let us start with the first one. Let me start 
by paraphrasing a quote that I heard from Dr. Harrison Pope--
Skip Pope--at Harvard University, who is one of the world's 
experts on the subject. He points out that steroid use is 
probably the only drug out there that a trained eye can see the 
steroid abuser and identify it as steroid abuse when the 
individual walks in the room. You can tell by the way he is 
built, the acne, the greasy skin, the puffy face. There are a 
whole list of symptoms that a trained eye can use to identify 
this.
    First, our coaches are not trained, and require no training 
in our part of the country whatsoever, on the subject, the 
dangers in general or certainly to look for the symptoms.
    Secondly, even if they know that they have got a kid using 
steroids, there is not a whole lot of incentive for them to do 
anything about it. I have heard coaches tell me privately that, 
you know, why am I going to disarm myself? I am in a 
competitive world. I have got 2 years to get a win-loss record 
to earn or to keep my job. Why am I going to disarm myself and 
take on and tackle a steroid problem unless the guy on the 
other side of town that has got the other football team disarms 
the problem?
    So I do not think they understand the dangers. There are 
probably those that are encouraging or that are aware of the 
dangers and doing nothing about it, but I think it is just 
benign ignorance and then benign neglect that they are not 
trained nor are there, at least in our experience with our 
local school officials, the school officials insisting that 
they pay attention to it or training them and insist that they 
deal with it. But they are indeed the ones that, in my 
experience, are best-positioned to solve this problem.
    Chairman Grassley. Thank you, Mr. Hooten.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    First of all, thanks for your testimony from all four of 
you. I was particularly impressed, Mr. Wenzlaff, by your 
testimony because it is with no embellishment. You were 
precise, extremely precise, in your testimony, and I personally 
thank you for that.
    One of the phrases that has been used here, Doctor, that I 
would like you to comment on, Mr. Wenzlaff referred to abuse of 
steroids. Now, that implies there is an ability to use steroids 
and not abuse them. He was very precise and, in my experience 
over the last 10 years, initially, 10 years ago getting into 
this field and contacting doctors, and athletes and others, to 
try to learn not only the extent, but the differences in the 
way, in the sophistication in the use of steroids.
    There are those who said then, and say now, that if you had 
essentially a controlled regimen, which Mr. Wenzlaff indicated, 
where blood pressure is taken daily, 3 times a day, urinalysis, 
et cetera, you are essentially doing lab tests on a regular 
basis to see the effect on your body, to the extent that it is 
measurable, in terms of negative side effects, so my question 
here is, is there a distinction between abuse of steroids and 
use of steroids?
    Dr. Catlin.  I am afraid I have to disagree with my 
colleague. I understand his point. It is an interesting one. In 
the early days in this country of steroids, many doctors were, 
in fact, prescribing them. They felt that as long as they 
prescribed them, they would control the dose, and there would 
not be so many side effects. The problem was they could not 
control them. The steroids were available in a----
    Senator Biden. Well, that is really not my question. My 
question is, if they could be controlled, if you did laboratory 
experiments, if you put into--and one of the things I want to 
get to with you is that there is very little research being 
done on an intensive basis here--one of the questions I want to 
get to is; should we be funding such research at NIH or should 
we be doing something.
    But if, in fact, it was a laboratory-controlled 
circumstance, and in that sense controlled, is it possible to 
use and consume anabolic steroids in a way that, assuming it 
was in a controlled circumstance, you were in an experimental 
program, that you could get the ``benefit'' and reduce in a 
significant way the negative side effects that are produced by 
the use of steroids?
    Dr. Catlin.  No. Short answer--no. Some of these effects 
are just going to hit you no matter how much you take, and you 
are subject to that. Plus, it is cheating.
    Senator Biden. Right. And the reason I say it, I mean, one 
of the things I have found in all of the years of dealing with 
these drug issues is that the single most important thing to do 
for John Doe, and he is an example of not using steroids, is to 
be as analytically straightforward and honest as you can be.
    I mean, back in the 1960s, in the early 1960s, when we were 
told by parents that you should not smoke marijuana because you 
would go blind or it would make you, you know, I mean all of 
these things that were just simply not true. And then when 
students, young people, used it, and they did not have those 
bad effects, they figured all that we were told about drugs was 
not true. So I just want to make sure we are as absolutely 
candid about and honest about what we know and what we do not 
know about the use of steroids.
    Now, my staff went out, and as you point out--all of you 
point out--there are hundreds of these products that can be 
bought over-the-counter. The molecular diagram you put up, 
Doctor, relating to andro and testosterone is the difference 
meaning that it is O, instead of HO, at the end. But your 
assertion is that once consumed and in the body, it takes on 
the exact property of testosterone, correct?
    Dr. Catlin.  Exactly. The body converts it.
    Senator Biden. Let us go back. Why would there be a need 
for someone to inject an anabolic steroid into their body if, 
in fact, they can legally purchase substances which would have 
the same chemical impact on the body? Now, that may not be true 
for all substances. It is for Andro, you are suggesting--not 
suggesting--you are stating, and it may or may not be so for 
THC or other drugs, other substances that are able to be 
purchased. What would be the reason why a young woman or man, 
seeking to enhance their performance or to get buff would not 
be able to completely satisfy their requirements by--and I am 
holding up only two of scores of products--that would have the 
same effect, and do they have the same effect? Is there a 
difference in the potency? If I were to consume this Andro, is 
that going to have any less or more impact on the production of 
testosterone in my body than if I injected it?
    Dr. Catlin.  Yes. The steroids, they are all different 
potency. Some are lean, mean and strong, but if you take enough 
you get the same effects. They are just like testosterone. You 
just adjust the dose. So you have to look at the dose. You have 
to take 500 milligrams of Andro to get an effect. If you only 
take 100 milligrams for the day, that is not going to have much 
of an effect. And you have to take it for a period of time, two 
weeks or three weeks.
    Senator Biden. Got you, okay. So that the essence of this 
hearing is to determine whether or not Senator Grassley and my 
attempt to close the loophole that we thought we took care of 
in the 1990s is appropriate and necessary. So that for the 
record, Doctor, I have Andro 100 Poppers. I guess Pinnacle is 
the brand name. The reason why this should be outlawed--and by 
the way, all the items you all mentioned are covered by 
legislation, would be outlawed--would be treated like an 
anabolic steroid under the statute. The reason this should be 
outlawed is because if, depending on the dosage, it can have 
the same enhancing and the same negative impacts as an anabolic 
steroid consumed by injection, injected into the body. Is that 
what we are saying?
    Dr. Catlin.  That is what you said, and I agree with you. 
It is an anabolic androgenic steroid sold over-the-counter.
    Senator Biden. What I do not want, and what I hear 
sometimes when I am in a gym or when I am around athletic 
performers, is that I got it all wrong, that this is not really 
the same thing, this does not have the properties, this cannot 
do the damage, this cannot have the positive or negative 
impact, I mean, among those who consume this product, for 
example. So for the record, the testimony is that the 
consumption of these and other products, which we will put in 
the record, that would be covered by our legislation, do have 
performance enhancing--in my view, cheating--aspects of 
competition, and they do have the negative medical impacts that 
anabolic steroids do, depending on the degree to which they are 
consumed, the dosage, et cetera. Is that correct?
    Dr. Catlin.  If you take those things into consideration, 
they are all the same.
    Senator Biden. Mr. Hooten, I cannot tell you how much I 
admire your willingness to come forward, and I just cannot 
fathom the difficulty you have had dealing with the loss. All 
one has to do is lose a child to understand the depth of it, 
and to lose a child to suicide is beyond being able to be 
fathomed, by me anyway.
    But let me ask you one question I have been debating here 
whether to ask you, because it is a difficult question, and I 
have lost a child as well, not to suicide. It was an automobile 
accident early on. When you saw this impressive weight gain and 
muscle mass, what did you think?
    Mr. Hooten.  That is a great question because one of the 
things you do after a suicide is you ask yourself, why did we 
not notice this? Why did we not connect it with something? We 
have asked that question of ourselves a thousand times.
    Taylor was--I do not know that he was taking Andro. I do 
not believe he was. He was taking some protein supplement 
purchased at the local health food store. He was working out 
like crazy at the Y. He was 16-years-old, 16-and-a-half and 
growing. And so number one, you kind of figure--maybe we chose 
not to see it, did not see it, but for whatever reason did not 
recognize----
    Senator Biden. The point I was leading to, look, if the 
whole world, the whole world could see this picture and then 
this picture--and they did not happen overnight--there are a 
whole hell of a lot of races that occurred between this picture 
and this picture.
    Mr. Hooten.  Yes.
    Senator Biden. And a lot of people thought, who were not 
experts, God, he is really working out.
    I guess what I am trying to say is, one of the things, 
Doctor, that you said, I think has to be reiterated to every 
coach so you cannot engage in rationalization. It is virtually 
impossible, from the time school lets out in May or June to the 
time you come back in September and October, for a kid to be 
able to put on 25 or 30 pounds of muscle. He or she could work 
out in the most incredibly structured regime with an Olympic 
bodybuilding coach, but the chances of that being able to be 
done without some chemical enhancement are virtually impossible 
are they not?
    Dr. Catlin.  Yes.
    Senator Biden. I just think we have to repeat that and 
repeat that to people, that you cannot go from 13-inch arms to 
18-inch arms in a matter of even six months, you cannot go to 
it in a year--maybe you could in a year--but you cannot do that 
without some chemical enhancement. The quicker everybody gets 
beyond this malarkey about that somehow, ``We have a hell of a 
weight room, man. We got a hell of a workout program.'' Ain't 
no such thing to be able to put on that kind of mass. Is that 
right?
    Dr. Catlin.  You have it right, sir.
    Senator Biden. I know these are overly simplistic questions 
to be asking a man of your background, but believe it or not, 
there are thousands of people out there, there are thousands of 
fathers and mothers, particularly fathers, who would like to 
believe their kid at 16 just grew and became stronger 
naturally. I can remember my own personal experience. I grew 6 
inches from the time I was in March of my sophomore year to 
November of my senior year, and that is how much I grew, over 5 
inches. Now, people say, well, they see these growth spurts, 
and so they rationalize to themselves or think to themselves, 
well, it could have just as easily been, if I am already 6-3 
and I am already a hell of a physical specimen and I am already 
170-some pounds and I am 16-years-old, why could I not have at 
that growth spurt put on 25 pounds of muscle? But you cannot, 
can you?
    Dr. Catlin.  No.
    Senator Biden. I just really think it is an important point 
to pound home to people so we do not allow coaches, we do not 
allow parents, we do not allow people to rationalize that this 
is possible because the kid has a hell of a work ethic.
    The next point I want to ask--I am sorry to go on, Mr. 
Chairman. I will try to make this as quick as I can. If the 
difference between a 15-year-old and a 50-year-old, getting on 
the same regime of consumption, whatever it happens to be, of 
Andro or any of the over-the-counter substances that we are 
trying to outlaw, the difference is what, that it can stunt, it 
can have more profound effects on growth patterns for a 15-
year-old than it can for a 50-year-old who already, the bone 
has grown as much as it is going to grow, the height, et 
cetera. But is there any other difference in effect? Is it 
safer for a 50-year-old to consume this stuff, but for that, 
than it is for a 15-year-old?
    Dr. Catlin.  One of the big differences is that the younger 
person is working out. You cannot just take a couch potato and 
fill him full of steroids and get him huge and strong. They 
have to be working out. They have to be diligent about their 
weight room and their training.
    An older person, a male once they get past age 50, their 
testosterone levels begin to fall. It is legitimate in medical 
science to treat a patient with lowering levels by giving them 
controlled doses and bringing them back up, and there is, in 
fact, some legitimate use of testosterone today for just that 
purpose, because men, as they age, get weaker. Their muscles 
get less strong. That is very different than making steroids 
available that can propel you from this point, way, way up here 
to become one of these very hulky monsters.
    Senator Biden. But in terms of the negative side effects on 
the body, are there enough studies that are out there to 
demonstrate that--and you got right to what I was getting at--
because there are in medical literature--I am above my pay 
grade here, okay--but the medical literature as I understand 
it, there is some increased discussion about maintaining 
testosterone levels for men above the age of 50. My question, 
just purely an analytical question as an inquisitive person, is 
if you are supplementing a decline in the naturally-produced 
testosterone in the human body and raising the level up, is the 
physiological impact on the body negative or any different than 
supplementing a testosterone level, enhancing it beyond what 
the body is producing in a normal fashion?
    Dr. Catlin.  In a technical fashion, I cannot answer that. 
It is a wonderful question. It is a study that ought to be 
done. We are concerned, however, as men age, one of the reasons 
we do not like to give them testosterone is that their prostate 
gets large, and testosterone stimulates the prostate, and so 
the debate in medical science is whether or not giving steroids 
to men to bring their testosterone and their muscles back to 
normal--I mean, everybody's muscles just fade away when you 
start getting older--to bring those back does not seem like 
such a bad thing. But if you are going to stimulate growth of 
the prostate, it is. There is a lot of biomedical research to 
try to answer that question. I watch it very closely for my own 
reasons.
    Senator Biden. Again, I apologize for going into this kind 
of detail, but it seems to me one of the things that our 
efforts here should spark is a larger debate and discussion, 
scientific discussion, about the positive and negative uses of 
some of these supplements. To me it does not relate to whether 
or not they should be illegal over-the-counter, and so just to 
make it clear for the record, even if medical science proved 
beyond a reasonable doubt that the consumption for a man over 
50 of THC or some other substance, or Andro, would in fact have 
a beneficial impact, I believe it still should be illegal over-
the-counter and only available with a doctor prescribing it.
    I do not want anyone listening to this hearing, for them to 
think that I think well, maybe we should reconsider whether or 
not we should make this illegal. This is always available by 
medical prescription. The doctors are able to make a case if 
need be, for the use of steroids or the use of injection of 
testosterone into an individual. But it seems to me we are 
getting into an area here too that we should be thinking about, 
maybe not this committee, but us thinking about whether or not 
we should be funding research at NIH to have more of a looking 
glass into the effects of these various substances on the body 
long term.
    Curtis, if you do not mind my calling you by your first 
name, back in the days when you were in this milieu did the 
guys, quote, unquote, at the gym talk about the effects, the 
testicular effect on them? Did they observe and notice that 
their testicles were smaller? Did they talk about or worry 
about the effects of oilier skin and acne? Did they talk about 
breast enlargement? Was it a worry? And did people try to 
figure out how I get the benefit but not get the female-looking 
enlarged breast?
    Mr. Wenzlaff.  Absolutely.
    Senator Biden. I mean, talk to us like an athlete about the 
conversation at the gym 20 years ago in the use of this stuff?
    Mr. Wenzlaff.  There are side effects that you will 
potentially experience. This may happen. It has happened to X, 
Y and Z. It did not happen to L, M, N, O. You know, these are 
risks you are going to take, but look what you are going to get 
as a result. Look at the end result.
    Senator Biden. The reason why--and I will conclude----
    Mr. Wenzlaff.  Very compelling.
    Senator Biden. Yes. The reason why--and I will conclude 
with this, Mr. Chairman--Mr. Hooten, that Plano would spend $15 
million for a ballfield--we do not spend that much for our 
college fields, by the way, some of us, but anyway, for a 
facility--I am not criticizing, just observing, that is a hell 
of an investment in an athletic complex for most parts of the 
country--and not decide to invest more money in prevention and 
observance and education, et cetera, is the point that Dr. 
Catlin made I think, and I will end with this and ask you each 
to speak to it.
    My experience in dealing extensively in trying to deal with 
other drug abuse problems, whether it is speed or cocaine or 
heroin or a whole range of issues, is that Dr. Kleber up at 
Columbia and others who started educating me 20 years ago on 
these issues, said something interesting to me, and I think it 
applies here, that unless the risk is overwhelming, it is a 
product of youth to conclude they will not be in that risk 
pool. It is just an assumption, not me. It will not happen to 
me. The reason why I suspect, Doctor, and I appreciate your 
being here as a scientist and suggesting that these God-awful 
slides you put up occur rarely, but occur, and you do not know 
why they occur, you do not know why it occurs in Smith and not 
Jones who use the same things. If it occurs in Smith and not 
Jones, everyone thinks they are Jones when they are 15-years-
old. Everybody thinks they are Jones when they are 18-years-
old. So that is why I think that we need a heck of a lot more 
research in trying to figure out the predictability of these 
negative impacts on people in order to have an impact.
    But I guess I will not even ask for you to comment. I have 
other questions I will submit in writing. The hearing has gone 
beyond what at least I anticipated, taking this long, and so I 
thank you all very, very much.
    And I thank you, Mr. John Doe, for having the willpower and 
the foresight to take the position you have taken.
    And, Curtis, I thank you a lot. I mean you gave us an 
analytical straightforward view of what it was before. I cannot 
imagine that it is a lot different now, but thank you very 
much, both of you.
    Mr. Hooten, my heart is with you, pal.
    Mr. Hooten.  Thank you.
    Senator Biden. But it does get better.
    Chairman Grassley. Mr. Doe, I have a couple of short 
questions for you. Did you ever take Andro, and if you did, 
what effect did it have on you?
    Mr. Doe.  Yes, I did take Androstenedione in high school. I 
did not consider it a steroid at the time, but obviously it is 
from the testimony you have heard. It did have somewhat of a 
psychological impact on me as well as a physical one.
    Chairman Grassley. Then you testified that you knew people 
on your team who were using steroids. Do you believe that those 
who used were aware of the dangerous side effects that we have 
heard about here today?
    Mr. Doe.  That is hard to answer, but I think the majority 
were aware of the effects.
    Chairman Grassley. I thank you all for your testimony, and 
appreciate very much your participation. I cannot say much more 
than thank you. I know you took a lot of time out of your busy 
schedules to be with us. We appreciate it very much, adding to 
the knowledge of the danger of steroids. Thank you very much.
    The Caucus is adjourned.
    [Whereupon, at 12:33 p.m., the Caucus was adjourned.]

                            A P P E N D I X

                        Questions for the Record
    Dr. Catlin, you have been at this long enough to know that everyone 
thought we had the steroid problem solved back in 1990 when we passed 
the Anabolic Steroid Control Act that first made steroids illegal. 
Little did we know then that a seemingly harmless line in the 
definition of ``anabolic steroid''--namely, that the substance must 
promote muscle growth--would come back to haunt us. That is why the 
steroid legislation pending today gets rid of that muscle growth 
requirement to make it easier to add substances to the list of illegal 
anabolic steroids in the future.
    But we will still have the problem of detecting and identifying new 
substances. You and your team of scientists did a great job identifying 
THG last year. You are clearly the expert on problems related to 
identifying new substances.
    How do we stay ahead of the scientific curve on this? Is there 
anything that we can do in terms of resources, equipment, etc. to help 
you to detect new designer steroids or new doping techniques?
    Not only can we get ahead but we can stay ahead. At times the 
problem of drugs in sport seems intractable, but it is not. In the past 
20 years we have learned that only a few athletes take drugs but they 
ruin it all for everyone else, that we need to test all-year-around not 
just at events, that we need very sophisticated analytical methods, 
that we have to be able to defend our work in courts of law, and most 
of all that we need to have a sustained properly funded research and 
development effort.
                            BACKGROUND FACTS
    <bullet> The nature of the laboratory testing process is 
exceedingly complex and gets more so each day.
    <bullet> There are tests for some but not all the drugs that 
enhance performance: there is a steroid test, but it keeps needing to 
be expanded to cover new designer drugs. There is an EPO test, although 
it has a lot of room for improvement, but the test for human growth 
hormone is not here yet.
    <bullet> Each new test method and instrument is more expensive than 
the last method.
    <bullet> Funding is the rate limiting step in the pathway to truly 
clean sport.
    how to solve the problem of drugs in sports: the infrastructure
    The most important element in the fight against designer drugs is 
research and development (R&D). Without R&D, the lab could easily test 
each of 40,000 urine samples a year perfectly, but it couldn't 
troubleshoot or optimize existing methods, let alone crack new designer 
steroids and invent new tests for them. Without constant attention and 
pruning the methods would become obsolete. The latest advances in 
chemistry need to be exploited as soon as possible because the 
clandestine chemists who make designer steroids never rest.
    Why not let the lab seek R&D funding for each new problem as it 
arises? This would be far too slow. The laboratories need to be nimble 
and fast. After all we now know that the Balco drugs were in play for 
five years before we caught on. The administrative process could easily 
take funding agencies a year before the lab can assign any resources 
(personnel, equipment, supplies) to begin to work on the problem. This 
would inherently keep enforcement lagging far behind the cheaters. We 
need to be ahead like we were when we found athletes on a just released 
drug at the Games of Salt Lake City.
    What if R&D funding were to be given in advance of when specific 
problems arise? For example, in the past few years, my lab has had 
unrestricted grants for research on designer steroids that we were 
obviously not able to name in advance. But even these grants can only 
help achieve so much. This is because they are, typically and at best, 
only sufficient to fund one senior researcher for a year or two. This 
kind of offer might attract young Ph.D. graduates looking for short-
term post-doctoral training before moving on to a position with real 
career potential. Post-docs give their best but only for the short time 
they stay, like a flash in the pan. Thus, throwing an occasional few 
hundreds of thousand dollars at the problem is not the way to stay 
ahead of the scientific curve.
    To develop and sustain a long-term research effort, the system 
needs to attract and retain world class research scientists, by 
offering them competitive opportunities for professional growth and 
sufficient financial support to acquire new technologies. Analytical 
and synthetic chemists, pharmacologists, and molecular biologists would 
pool their expertise. Then doping control research could blossom into 
an exciting, vigorous, dynamic field. This can only be done with 
sufficient, long term funding on the scale of at least a few million 
dollars a year for at least five years.
  how to solve the problem of drugs in sports: the scientific approach
    On the technical side, if we had sufficient funding to have a 
dedicated R&D team, I believe we could find a way to detect designer 
drugs virtually within days of their release. It would be helpful if we 
could establish a relationship with government investigators so that we 
could obtain early intelligence from their field operations. But even 
in the best case scenario, this would be an expensive and laborious way 
to stamp out drug use, one designer drug at a time, while nothing keeps 
cheaters from moving on overnight to the next designer drug: we would 
be pushing the problem around instead of solving it.
    Therefore, there is a need to leap ahead of the curve and consider 
a novel approach, capable of detecting any known or novel manipulation. 
Such a test would monitor many physiological measures and watch for any 
drift outside of the range of normal. Although this would be a vast 
improvement, it would still be true that no test can catch all 
cheaters, and that substantial resources would be spent on an 
adversarial system. Yet another leap ahead of the curve then, is to 
turn the culture around, and reward integrity instead of punishing 
cheating.
    I propose a volunteer program in which athletes wishing to compete 
drug-free would enroll and consent to be tested (doping control test) 
and examined (medically) at any time. The rationale is that only drug-
free athletes would sign up. The cheaters would not dare because they 
know they would be caught. Drug-free athletes welcome testing! It is 
the cheats that run and hide.
    Volunteers whose medical parameters (e.g. hematocrit) shift out of 
line would be asked to leave the program. They would not be suspended 
from competition, but their name would be removed from the public list 
of volunteers. Volunteers who test positive for a banned substance 
would be suspended from competition--but chances are there wouldn't be 
any. The unique and different feature of the volunteer program is that 
it rewards the athletes that don't take drugs. A volunteer program like 
this ought to be tried in order to see if it can get drugs and cheating 
under control.
                              CONCLUSIONS
    What Congress can do to help is boost the R&D effort in the very 
long term by funding internships, fellowships, training programs, and 
maybe even create a research institute funded in perpetuity. We need 
fresh eager scientists to come into the field. The science is 
inherently exciting and attractive to them but they have no career 
path, no school to attend, no jobs like there are in industry. Doping 
control is here to stay--that is the public will.

[GRAPHIC] [TIFF OMITTED] T8053.025

[GRAPHIC] [TIFF OMITTED] T8053.026

[GRAPHIC] [TIFF OMITTED] T8053.027

[GRAPHIC] [TIFF OMITTED] T8053.028

[GRAPHIC] [TIFF OMITTED] T8053.029

  

                                  <all>

</pre></body></html>
